<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE FISH AND WILDLIFE SERVICE AND LEGISLATIVE HEARING ON ENDANGERED SPECIES BILLS</title>
<body><pre>[Senate Hearing 114-37]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 114-37

   THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE FISH AND 
                                WILDLIFE
      SERVICE AND LEGISLATIVE HEARING ON ENDANGERED SPECIES BILLS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 6, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://www.gpo.gov/fdsys
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-995 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 
 
 
 
 
 
 
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 6, 2015
                           OPENING STATEMENTS

Enzi, Hon. Mike B., U.S. Senator from the State of Wyoming.......     1
Heller, Hon. Dean, U.S. Senator from the State of Nevada.........     3
Gardner, Hon. Cory S., U.S. Senator from the State of Colorado...     5
Booker, Hon. Cory A., U.S. Senator from the State of New Jersey..    23
Thune, Hon. John, U.S. Senator from the State of South Dakota....    29
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    30
Boxer, Hon. Barbara, U.S. Senator from the State of California...    32

                               WITNESSES

Ashe, Hon. Dan, Director, U.S. Fish and Wildlife Service.........    44
    Prepared statement...........................................    47
    Responses to additional questions from:
        Senator Inhofe...........................................    63
        Senator Booker...........................................    86
        Senator Cardin...........................................   100
        Senator Sessions.........................................   101
        Senator Vitter...........................................   102
Bernhardt, David, Partner, Brownstein Hyatt Farber Schreck, 
  Former Solicitor, Department of the Interior...................   136
    Prepared statement...........................................   138
Cruickshank, Gordon, County Commissioner, Valley County, Idaho...   143
    Prepared statement...........................................   146
Barry, Donald, Senior Vice President, Conservation Program, 
  Defenders of Wildlife..........................................   153
    Prepared statement...........................................   155

                          ADDITIONAL MATERIAL

May 5, 2015, letter to Senator Inhofe from the Texas General Land 
  Office.........................................................   170
May 6, 2015, statement by the Fur Industries of North America....   172

 
   THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE FISH AND 
  WILDLIFE SERVICE AND LEGISLATIVE HEARING ON ENDANGERED SPECIES BILLS

                              ----------                              


                         WEDNESDAY, MAY 6, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Dirksen Senate Building, Hon. James M. Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Boxer, Wicker, Fischer, Rounds, 
Barrasso, Crapo, Boozman, Sullivan, Capito, Cardin, Merkley, 
Whitehouse, Booker, Markey, and Gillibrand.
    Senator Inhofe. Our meeting will come to order.
    Let's do this. We have five members. One is Senator Enzi, 
one is Senator Booker and the other three will be here, who 
have legislation that they have introduced that does affect 
Fish and Wildlife. So we have said we would be happy to have 
them make a brief statement as to their legislation. And this 
is your opportunity, since you are the first one here, Senator 
Enzi, we will recognize you.

            OPENING STATEMENT OF HON. MIKE B. ENZI, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Enzi. Thank you, Mr. Chairman, Ranking Member. I 
appreciate this opportunity to testify before you on S. 736, 
the State, Tribal and Local Species Transparency Act. I 
appreciate the committee's efforts to focus on the Endangered 
Species Act. We have some of the richest wildlife habitat in 
North America and it supports a number of industries, including 
tourism, guiding, recreation, agriculture, just to name a few.
    The successes in Wyoming have come from State management of 
wildlife based on science collected from State, local, tribal 
and Federal wildlife officials. An example of that is we have 
recovered an extinct species. The black-footed ferret was 
considered extinct. Near Meeteetse, Wyoming, I think its 
population is about 85, they found a few of these, they 
captured them, they put them into captivity for a while so they 
could get the best genetic breeding on them. They have expanded 
dramatically and they have been released back into the wild and 
they are doing well out there now.
    That is an effort that relied on science from a variety of 
sources, including State and Federal biologists. It has 
resulted in restoring North America's only ferret species.
    However, these types of partnerships aren't the norm. In 
too many cases, the data Federal agencies rely on to make a 
listing are not shared with the key State partners. Making 
matters worse, there are instances when State, local and tribal 
science is ignored completely.
    For that reason, I introduced this bill to include those 
people. I did it last year with a number of my colleagues and 
again in this Congress. It is designed to ensure that the 
Federal Government adheres to its statutory responsibilities to 
cooperate with the States under the Endangered Species Act and 
second, to ensure that the best available scientific data is 
used in the listing decisions.
    Section 6 of ESA already requires the Secretary to 
``cooperate to the maximum extent practicable with the 
States.'' Despite the statutory charge on the Federal 
Government, States have noted cases where the ESA listing 
decisions are made in the dark, and express that Federal 
agencies often duplicate analyses in conservation plans that 
are already generated by the States.
    We know that science from State, local and tribal officials 
plays an effective role in wildlife management. For example, in 
December, 2010, the Fish and Wildlife Service proposed to list 
the dune sagebrush lizard as endangered under the ESA. Texas 
officials raised concerns that the Fish and Wildlife listing 
proposal depended on scant, outdated data from the 1960s to 
determine the lizard's known distribution and assumed that the 
lizard was locally extinct in certain areas where the State of 
Texas had verified that it was present.
    After research and field surveys conducted in cooperation 
with the States, the local government and other affected 
stakeholders, the Fish and Wildlife Service reversed its 
earlier determination to list the dune sagebrush lizard as 
endangered in June 2012. As a result, the lizard continues to 
co-exist with State economic activities in the area that 
produces 14 percent of the Nation's oil and 47,000 jobs.
    The bill also ensures that the best scientific and 
commercial data available to the Secretaries of Interior or 
Commerce is used in ESA listing decisions. Hearings on this 
bill in the House during the last session of Congress revealed 
numerous examples of Federal agencies not including data or 
information in decisions where they are required to utilize the 
best scientific and commercial data available.
    I can go into an example of grizzlies in Wyoming, they were 
measuring footprints instead of checking the DNA of the hair of 
the bears in the feeding areas.
    The legislation you are considering today is designed to 
address such inadequacies. S. 736 does not favor one science 
over another or require multiple county or State submissions of 
conflicting data. The Secretary of Interior or Commerce would 
continue to have the final decision on what constitutes best 
available scientific and commercial data. However, S. 736 would 
ensure that they incorporate and provide proper respect for 
data provided to them by States, tribes and local governments.
    I will keep my comments short because I know you are 
covering a number of different things today. You are going to 
be taking testimony from others, including Director Ashe. I 
have to say that he has been extremely helpful with the Wyoming 
wolves, improving the Wyoming plan for wolves, which has led to 
an increase in the number of wolves but a decrease in the 
number of conflicts.
    I will say there are a number of these other bills I have 
co-sponsored as well as helped author. In particular, I want to 
recognize Senator Gardner for his work with the Wyoming 
delegation to ensure that States with existing approved or 
endorsed plans are adequately protected under this legislation. 
I thank you, Mr. Chair.
    Senator Inhofe. Thank you, Senator Enzi. Consider me a co-
sponsor.
    Senator Booker.
    Senator Booker. Mr. Chairman, I would happily defer to 
Senator Heller. I know he will want to speak and leave. I am 
going to be here for the entire hearing. And there is a 
tradition; we are both from the PAC 12. We always let USC go 
before Stanford, because you save the best for last.
    [Laughter.]
    Senator Inhofe. We also have Senator Gardner here, so we 
will go ahead with you, Senator Heller.

            OPENING STATEMENT OF HON. DEAN HELLER, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Heller. Mr. Chairman, thank you.
    Senator Inhofe. And I say to my fellow Senator, try to keep 
it within 5 minutes. We have a big agenda today.
    Senator Heller. Certainly, I will give it my best effort, 
my best PAC 12 effort, let's put it that way.
    I do want to thank my friend from New Jersey for his help 
and support and for his efforts for his school. I know how 
important that is to him as it is for all of us. Thank you very 
much.
    Again, Mr. Chairman, thanks for holding this hearing today. 
I know you have a number of pieces of legislation on today's 
agenda. My bill, the Common Sense in Species Protection Act, is 
one of them.
    As you are well aware, I grew up in the State of Nevada. We 
understand the importance of being good stewards of our natural 
treasures. We are very blessed in our State. But we also 
understand the importance of economic development. As you are 
probably well aware, hunting, camping, horseback riding in your 
State is just as revered in our State. We still to this day, my 
wife and I, when opportunity avails itself, get our horses out 
and we will pack our horses into the Sierras, or take some 
crest trail that spooks my wife a little bit. But we continue 
to do so.
    Needless to say, I just want to make sure that the 
activities that I have enjoyed over the years, my family, my 
children, are continued for future generations. I think that is 
why we are here today. I again appreciate, Mr. Chairman, your 
efforts to hold this hearing.
    I think it is important that we have effective 
environmental laws that balance the need to protect wildlife 
and the environment while allowing for reasonable economic 
development. Unfortunately, the Endangered Species Act, I 
believe, is a prime example of a law that has proven to be out 
of date and frankly, ineffective. Since the last time it was 
reformed 30 years ago, it has less than a 2 percent effective 
recovery rate. I know these days you get medals for just 
participating, but when I was in school, 2 percent definitely 
was a failing grade. It is clear the law is not serving 
wildlife or frankly, our western ways of life as it should.
    While my bill is not a cure-all, it is a simple reform 
aimed at modernizing the ESA, making the listing process more 
transparent. When the U.S. Fish and Wildlife makes a listing 
decision, it not only aims to protect the species itself, it 
also affords some protection to the ecosystems that these 
species rely upon.
    They frequently make what is called a critical habitat 
designation, which of the lands that are essential for the 
conservation of that particular species. Activities on these 
lands, as you can imagine, Mr. Chairman, are heavily 
restricted. States like Nevada, where mining, ranching, energy 
production and outdoor recreation all serve as a central 
component to our local economy, these restrictions have been 
and can be very devastating.
    My bill does not take away from Interior's to limit these 
types of activities. What it does require, though, is that the 
Department of Interior report the full economic impact of any 
proposed critical habitat designation to the public before it 
makes a decision. Specifically, rather than a very limited 
economic analysis that they can currently conduct, which by the 
way is very limited, the Service must determine the effect a 
designation would have on property use and values, employment 
and revenues for the States and local governments. 
Additionally, it requires the Service to exclude areas from 
critical habitat designation if the benefit of keeping it a 
multi-use purpose far exceeds the benefits a restriction would 
have for the wildlife.
    Access to all lands, particularly public lands, is vital to 
Nevada's character and its economy. Restricting the multiple 
use of those lands in a non-transparent and irrational fashion 
is not an option for Nevadans who rely heavily on them for 
their livelihood. Whether it is the greater sage grouse, the 
long-eared bat, the lesser prairie chicken or any other species 
the agency is making a decision on, it is critical that at a 
minimum that we had this simple common sense step to that 
process.
    So before I conclude, I would like to briefly touch on 
Senator Cory Gardner's Sage Grouse Protection and Conservation 
Act. I will let him discuss the details of his bill. But as an 
original co-sponsor, I want to underscore the importance of 
this measure to the State of Nevada. Fish and Wildlife is 
expected to make a decision on whether to protect the greater 
sage grouse under the Endangered Species Act this fall. Should 
it get listed, our rural way of life and our local economies 
would be devastated. All grazing, all hunting, all recreation, 
all mining and energy production in over 19 million acres of 
public lands in Nevada would all come to a screeching halt.
    Given the threat of a listing, the 11 western States, home 
to sage grouse, have been working diligently on State-specific 
conservation plans. These plans specifically aim to address 
each State's unique threats to sage grouse while protecting 
their local economies. So it is important to States and the 
Interior has said they play a major factor in their listing 
determinations.
    My time has run out, Mr. Chairman, and I will cut my 
comments short. I again want to thank you for our efforts on 
hearing these bills. I think it is important. We are determined 
in these western States that our rural way of life can be 
strengthened. I think we can work together to make this happen.
    So thank you, and again I want to thank the gentlemen to my 
right and left for their efforts and your committee for hearing 
these bills.
    Senator Inhofe. Very good. Thank you. Senator Gardner.

          OPENING STATEMENT OF HON. CORY S. GARDNER, 
            U.S. SENATOR FROM THE STATE OF COLORADO

    Senator Gardner. Thank you, Chairman Inhofe. To Senator 
Booker, not everybody can be in the Mountain West Conference. 
We understand that.
    [Laughter.]
    Senator Gardner. Thank you, Chairman Inhofe and Ranking 
Member Boxer, for this hearing today on the Endangered Species 
Act, including my legislation, S. 1036. It has been just around 
10 years ago that I first testified before the EPW committee on 
the need to look at how we can do a better job of recovering 
the species under the Endangered Species Act. The Sage Grouse 
Protection and Conservation Act is a part of that continuing 
effort.
    Thank you to co-sponsors here, Senator Heller and others, 
about this discussion and the importance of this legislation. I 
certainly welcome the opportunity to make this a truly 
successful bipartisan effort.
    The Act that we have introduced is designed to allow States 
to create and implement State-specific conservation and 
management plans, State-specific plans that would allow us to 
protect and restore greater sage grouse populations and their 
habitats and require Federal agencies to honor the hard work 
and massive investments by the States to protect sage grouse 
within their borders. It is important to note that this 
legislation is not a mandate. Again, this is an optional 
approach. A State may choose to defer to Federal agencies for 
sage grouse protection. A State opts into this legislation.
    In 2011, Secretary of the Interior Salazar invited western 
States to craft State plans for the management of sage grouse 
on all lands, State and Federal. These plans were to be 
submitted and considered by the Secretary as the preferred 
management alternative for sage grouse within each State as 
part of the land use plan process. My legislation keeps that 
promise and allows States to prescribe management of sage 
grouse within their borders.
    Colorado and other States have spent years crafting these 
plans and spent hundreds of millions of dollars, all with the 
cooperation and participation of interested stakeholders and 
the Federal agencies. Since 2010, States, Federal agencies, 
landowners and stakeholders are voluntarily protecting over 4.4 
million acres of private property for sage grouse. We have made 
tremendous progress, and my legislation seeks to keep that 
momentum moving forward.
    This incredible cooperation among States, the Federal 
agencies, landowners and stakeholders will no doubt end the 
moment that there is a listing of the sage grouse this 
September when the Federal land use plans are released in May 
or June, because those land use plan amendments will largely 
ignore the efforts of the States.
    The Sage Grouse Protection and Conservation Act ensures 
that sage grouse will be managed appropriately, whether they 
occur on Federal, State or private lands. It will prohibit the 
Secretary's proposed withdrawal of 16.5 million acres across 
the west from agricultural activity, energy development and 
outdoor recreation, which will cost jobs and devastate our 
local economies.
    This legislation represents an extremely important effort 
to keep all parties at the table to conserve the species. I 
look forward to working with members of the committee and 
colleagues in a bipartisan fashion to get this important 
legislation across the finish line and signed into law. I would 
like to submit a series of letters we have in support of the 
Sage Grouse Protection and Conservation Act, if I may do so.
    Senator Inhofe. We will put that into the record of this 
hearing.
    [The referenced information follows:]
   
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Senator Gardner. I thank you, Chairman and Ranking Member, 
for the opportunity to be with you today.
    Senator Inhofe. Thank you, Senator Gardner.
    Senator Booker.

           OPENING STATEMENT OF HON. CORY A. BOOKER, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Booker. Thank you very much, Chairman Inhofe and 
Ranking Member Boxer, for giving me a chance to talk about my 
Refuge Cruel Trapping Act, which would ban the use of body-
gripping traps in the national wildlife refuge system.
    Leg-hold traps have been banned in over 90 countries. 
Again, that is 90 countries that have banned the cruel leg-
holding traps. Yet even in the United States they are not 
banned in wildlife refuges.
    Jaw traps operate by slamming shut with bone-crushing force 
on any animal that trips the device. Terrified animals break 
legs, chew off limbs, dislocate shoulders and tear muscles as 
they try to break free of these traps.
    Strangulation neck snares are perhaps the cruelest of all 
the trapping devices. The snare is designed to tighten around 
an animal's neck as he or she struggles. Animals trapped in 
neck snares suffer for days and days and the death is often 
slow and painful.
    Not only are body-gripping traps gruel but they also are 
indiscriminate. Too often the animals caught in these traps are 
not the animals that are actually targeted.
    I will give one example of this. In 1989, a New York State 
Department of Agriculture study examined the effectiveness of 
using leg-hold traps for coyote control. The study found that 
10.8 non-targeted animals were trapped for every coyote. That 
is more than 10 to 1, the animals caught in these cruel traps 
were not their intended targets.
    And what types of non-targeted animals are being maimed and 
killed by these cruel body-trapping traps? Here are some 
illustrations. The endangered species, such as the lynx, are 
being maimed and killed. The lynx is caught, in this picture, 
in a strangulation snare trap that I mentioned earlier.
    Iconic species, such as the bald eagles, are being maimed 
and killed. At the time this picture was taken, the bald eagle 
was still listed as an endangered species.
    Common, everyday animals, even such as raccoons, are being 
maimed and killed, as we see in this picture. This is a leg-
hold trap shown here. Last month in Missouri on public land a 
mountain lion paw was found torn off in one of these traps. 
They found nothing but the torn paw of a mountain lion.
    And common animals, such as our pets, cats and dogs, are 
regularly, routinely caught and killed in these cruel traps.
    This last picture is an animal, a beagle named Bella. Bella 
was a 20-month old hunting dog who was killed in the steel jaws 
of a conibear trap. Bella's owner was devastated and obviously 
with anger asked, what was this type of deadly trap doing on 
public land? I wonder that too.
    Our wildlife refuges attract more than 47 million visitors 
a year. Nearly all those visitors, more than 99 percent, are 
using our refuge system for recreational purposes, not for 
trapping. Why would those 47 million visitors need to worry 
about the safety of their pet or even worse, the safety of 
their children? Just 2 days ago a 12-year old boy in North 
Carolina was taken to an emergency room after a body-gripping 
snare snapped shut on his hand while he was doing chores by a 
pond in his neighborhood. It took six doctors hours to release 
this boy from the trap.
    An American public overwhelmingly agrees that we should not 
be using these traps. Seventy-nine percent of Americans believe 
trapping on wildlife refuges should be prohibited. Charles 
Darwin called the leg-hold trap one of the cruelest devices 
ever invented by man. He said, ``Few men can endure to watch 
for 5 minutes an animal struggling in a trap with a torn limb. 
Some will wonder how this cruelty can have been permitted to 
continue in these days of civilization.''
    He said that in 1863. And I echo those words now today. How 
can such cruelty be permitted on wildlife refuges, of all 
places, where we are trying to preserve wildlife habitat? I 
urge my colleagues to support S. 1081 and join me in banning 
these cruel body-gripping traps from wildlife refuges. Thank 
you very much.
    [The referenced information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Inhofe. Thank you, Senator Booker. That is a wake-
up call.
    Our last presenter here with legislation will be a part of 
this committee, he is coming to this committee. Senator Thune.

             OPENING STATEMENT OF HON. JOHN THUNE, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I appreciate you 
and Senator Boxer holding this hearing today, and particularly 
giving me the opportunity to make a couple of comments about 
this bill.
    On March 4th, I introduced S. 655, which is a bill to 
prohibit the use of funds by the Secretary of the Interior to 
make a final determination on the listing of the northern long-
eared bat under the Endangered Species Act of 1973. Listing the 
northern long-eared bat under the Endangered Species Act is a 
misguided attempt by the Fish and Wildlife Service to protect 
the species which is suffering death loss and reduction in 
numbers from a fungus called white nose syndrome, not because 
of habitat loss.
    Mr. Chairman, even the Fish and Wildlife Service has 
acknowledged that ``White nose syndrome alone has led to 
dramatic and rapid population level effects on the northern 
long-eared bat. The species likely would not be imperiled were 
it not for this disease.'' The Congressional Research Service 
has informed me that during the last 10 years, no species has 
been listed in the United States under the Endangered Species 
Act naming disease as a primary factor for reduction in numbers 
in the listing.
    I point that out, that the white nose syndrome has been 
detected in only 25 of the 39 States included in the northern 
long-eared bat's range. Yet as a result of this misguided 
listing of the species, thousands of jobs are going to be 
placed at risk, including more than 1,500 timber industry jobs 
in my home State of South Dakota. My concern is that the Fish 
and Wildlife Service has insufficient supporting data to 
warrant listing the northern long-eared bat as a threatened 
species, particularly given the absence of white nose syndrome 
in so much of its range.
    In addition, I believe the Fish and Wildlife Service failed 
to adequately gather and consider credible information 
available from State government entities and other non-Federal 
sources before making its decision to list the northern long-
eared bat.
    Mr. Chairman, let me just say, what concerns me the most is 
that with the listing of this northern long-eared bat, once 
again we have a Federal agency that is throwing aside common 
sense and listening to special interest groups that, based on 
their actions, do not have the best interests of the people of 
this Country in mind.
    Along with the listing of the northern long-eared bat, the 
Fish and Wildlife Service has also published a proposed rule 
called the 4(d) rule which was designed to offer protection to 
forest management practices that would actually enhance the 
northern long-eared bat's habitat. It is my understanding that 
litigation filed by the Center for Biological Diversity 
regarding the 4(d) rule raises a purely procedural claim that 
is that the Fish and Wildlife Service must perform NEPA 
analysis on the 4(d) rule prior to finalizing it.
    It is likely that the Center for Biological Diversity will 
seek a stay or preliminary injunction request on the interim 
4(d) rule. If an injunction is granted, forestry practices 
would not be exempt from the take prohibitions of the 
Endangered Species Act, which would be an uncalled for blow to 
the timber industry and other industries in the eastern two-
thirds of the United States.
    Mr. Chairman, to summarize, many of my colleagues and I are 
deeply disappointed that in listing the northern long-eared 
bat, the Fish and Wildlife Service has failed to adequately 
address the real reason even it recognizes the decline of the 
northern long-eared bat, and that is white nose syndrome, and 
not the loss of habitat. I believe much more progress could 
have been made if the Fish and Wildlife Service had taken the 
funds it is using the list the northern long-eared bat and use 
those funds for research and other tools to diminish the 
effects of the white nose syndrome.
    We all know that Congress stepped in and took control of 
another ESA listing by removing the northern Rockies gray wolf 
off the ESA list because the Fish and Wildlife Service was too 
timid to do it. That may be what is necessary regarding the 
northern long-eared bat. In the case of the northern Rockies 
gray wolf, the Congress stepped in because nearly everyone 
acknowledged that the wolf was a recovered species.
    In the case of the northern long-eared bat, the issue isn't 
whether the species is in trouble, it is whether the ESA 
listing provides the kind of help the species needs and other 
species like it. The answer to that is a firm no.
    So I would hope, Mr. Chairman, that you all could work with 
me on this issue. It has a very detrimental impact on the 
economy of the Black Hills of South Dakota. And it doesn't 
address the fundamental problem, which is the disease that this 
bat is facing, not the habitat. This will have profound impacts 
on the habitat and on our ability to continue to produce timber 
in the Black Hills, something that is very important to the 
economy of that region and a lot of jobs.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Thune. We look forward 
to working on your legislation in this committee. I am sure it 
didn't go unnoticed to Director Ashe that of all the comments 
that were made in legislation that is being proposed here, it 
brings up the problem of a lack of transparency, secrecy, local 
input, these are things that people are concerned about, myself 
included.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. So we will have our opening statements 
here. The last time that we had a hearing on the Fish and 
Wildlife Service budget was when I was chairman many years ago, 
in 2003. It has been that much time since we have had a hearing 
on this. The Endangered Species Act has gone from a well-
intentioned piece of legislation in the 1970s to one that is 
dictated by environmental activist groups taking advantage of 
the adversarial system.
    In 2011, the Service entered into closed door settlements 
with environmental groups that has required the Service to make 
final listing decisions on hundreds of species but has not 
provided documents about how these settlements were developed 
despite repeated requests from Congress. The species covered by 
these settlements is staggering, covering almost the entire 
Country, as we have been observing. It includes the lesser 
prairie chicken, the northern long-eared bat, the greater sage 
grouse and numerous freshwater mussels and fish.
    The ESA recovery rate is a mere 2 percent, even though the 
entire Federal Government spent $1.2 billion on species 
conservation in 2013. This Administration touts its success as 
delisting more species than any other Administration and it 
has. Yet, when you look at the math on this thing, you note 
that it has delisted 12 species and yet listed several hundred 
at the same time. So we are getting deeper and deeper in that 
hole.
    In recent years, the Service has been too focused on 
listing more species instead of focusing on the goal of the Act 
to recover species. The Fish and Wildlife Service is forced to 
designate habitat because of lawsuits instead of a 
comprehensive understanding of the species and its 
surroundings.
    The Endangered Species Act has to be reformed to clarify 
the focus and achieve real results. It can no longer be an ATM 
machine for environmental groups looking to make money off 
statutory deadlines.
    In addition to a conversation with Director Ashe about the 
budget and how ESA can be fixed, I would like to use this 
opportunity today to examine all legislation within the 
Endangered Species Act nexus. That has been referred to this 
committee.
    Some of these bills are very narrowly tailored to address 
local issues. Others are bills that address overarching 
problems with the direction of ESA. In examining these bills, I 
hope to have a more clear direction in moving forward as to how 
we can modify the Endangered Species Act and return to its 
purpose.
    As a part of the ESA modernization, I want to bring the 
conservation efforts to a more local level. I think we heard 
that from those who are proposing legislation, Director Ashe. 
The Five-State Plan among Colorado, New Mexico, Oklahoma, 
Kansas and Texas to address the lesser prairie chicken was a 
thoughtful, thorough plan. It was a plan developed by local 
communities who know the land and the animal population. But 
the Fish and Wildlife Service has listed the lesser prairie 
chicken as threatened, which only works to discourage the 
efforts. And you know the efforts that took place in those five 
States.
    That is demoralizing, when they all come together, they 
work, they spend their money, their resources. I am not saying 
they are totally ignored. Because it could have been an even 
worse outcome.
    But anyway, communities are not incentivized to develop 
their own plans if the Fish and Wildlife Service will 
systematically reject them. I hope we do not see Fish and 
Wildlife make the same mistakes on the sage grouse and other 
species.
    I want to thank our witnesses for their time today. I would 
like to extend a special welcome to Director Ashe. Director 
Ashe came to Oklahoma at my request and we were pleased to show 
him the way that Oklahomans are working to protect and develop 
the species. I believe when you came that you really did listen 
and actually learn some yourself. So I thank you for that.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I said at the beginning of this Congress that our Committee 
would conduct vigorous oversight of the Obama administration's 
environmental policies, and there are few issues more in need 
of oversight than the Endangered Species Act. This Committee 
has not held a hearing on the Fish and Wildlife Service budget 
since 2003, the last time I was Chairman. I am pleased to have 
this hearing today, to hear from Director Ashe and our other 
witnesses about how ESA can be improved and Fish and Wildlife 
Service can be better managed.
    The Endangered Species Act has gone from a well-intentioned 
piece of legislation in the 1970s to one that is dictated by 
environmental activist groups taking advantage of the 
adversarial system. In 2011, the Service entered into closed-
door settlements with environmental groups that has required 
the Service to make final listing decisions on hundreds of 
species, but has not provided documents about how these 
settlements were developed despite repeated requests from 
Congress.
    The species covered by these settlements is staggering, 
covering almost the entire country, and includes the lesser 
prairie-chicken, the northern long-eared bat, the greater sage-
grouse, and numerous freshwater mussels and fish.
    The ESA recovery rate is a mere 2 percent, even though the 
entire Federal Government spent $1.2 billion on species 
conservation in fiscal year 2013. This administration touts its 
success as delisting more species than any other 
administration. And it has. Yet when you note that it has 
delisted 12 species yet listed hundreds, with hundreds more to 
be considered, their claim is far less impressive.
    In recent years, the Service has been too focused on 
listing more species, instead of focusing on the goal of the 
Act: to recover species. The Fish and Wildlife Service is 
forced to designate habitat because of lawsuits, instead of a 
comprehensive understanding of the species and its 
surroundings. The Endangered Species Act must be reformed to 
clarify the focus and achieve real results. It can no longer be 
an ATM machine for environmental groups looking to make money 
off of statutory deadlines.
    In addition to a conversation with Director Ashe about the 
budget and how ESA can be fixed, I would like to use this 
opportunity today to examine all legislation with an Endangered 
Species Act nexus that has been referred to this Committee. 
Some of these bills are very narrowly tailored to address local 
issues. Others are bills that address overarching problems with 
the direction of the ESA. In examining these bills, I hope to 
have a more clear direction in moving forward as to how we can 
modify the Endangered Species Act and return it to its purpose.
    As a part of the ESA modernization, I want to bring the 
conservation efforts to a more local level. The Five-State Plan 
among Colorado, New Mexico, Oklahoma, Kansas, and Texas to 
address the lesser prairie chicken was a thoughtful, thorough 
plan. And it was a plan developed by local communities who know 
the land and the animal populations. But the Fish and Wildlife 
Service listed the lesser prairie chicken, which only works to 
discourage local efforts. Communities are not incentivized to 
develop their own plans if FWS will systematically reject them. 
I hope we do not see the FWS make the same mistakes with the 
sage grouse and other species.
    I want to thank our witnesses for their time today. I'd 
like to extend a special welcome to Director Ashe. Director 
Ashe came to Oklahoma at my request and we were pleased to show 
him the ways in which Oklahomans are working to protect our 
development and species alike. I think he would agree that the 
Endangered Species Act can--and must be--improved and that 
States and local governments have answers and real-world 
experience we should be relying on to modernize the law. I look 
forward to hearing from our witnesses and my fellow Committee 
members on this important issue.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thanks so much.
    Director Ashe, thank you for dedicating your working life 
to protecting God's species. I heard them called by Senator 
Thune, I think he said a special interest. Well, let's take a 
look at what they look like. The American eagle, which was 
saved by the ESA, the very symbol of America. If we listen to 
the folks on this side of the aisle and they were here then, 
the ESA never would have passed and we might have lost this 
great symbol. And the lesser prairie chicken also needs to be 
checked out as well.
    So thank you for that and taking all the heat that you 
take. That is a compliment, because it means you are doing 
something and you are fighting for what you promised you would 
fight for.
    Now, I think it is important to note that today, we are 
looking at a series of bills, eight Republican bills and one 
Democratic bill. I want to say to Senator Booker, thank you. 
That is, you know, a heart stopping presentation. I hope we 
will all work together on that bill.
    But today, I received a letter from the following 
organizations against every single Republican bill on the 
agenda. And these are bipartisan groups. Many of these groups 
were started by Republicans.
    We have to remember, I think it was Richard Nixon who 
signed the Endangered Species Act, Richard Nixon. And all these 
back-door efforts we are looking at today have to stop.
    So here are the groups that wrote against every single 
Republican bill. You know, sometimes I have to pinch myself 
that this is really the Environment and Public Works Committee, 
not the Anti-Environment and Public Works Committee. Today it 
feels like the Anti-Environment and Public Works Committee. It 
is a bad, bad thing.
    So let me tell you the groups that wrote against these 
Republican bills. The American Bird Conservancy, the Animal 
Welfare Institute, The Audubon Society, Born Free USA, the 
Center for Biological Diversity, the Center for Food Safety, 
Clean Water Action, Defenders of Wildlife, Earth Island 
Institute, Earth Justice, Endangered Species Coalition, Friends 
of the Earth. The Humane Society of the United States of 
America, the International Federation of Fly Fishers, the 
International Fund for Animal Welfare, the League of 
Conservation Voters, the National Resources Defense Council, 
Oceanus, Sierra Club, Southern Environmental Law Center, the 
Union of Concerned Scientists, the Wild Earth Guardians and the 
Wyoming Wildlife Advocates.
    I ask unanimous consent to place these into the record.
    Senator Inhofe. Without objection.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Boxer. Then there is a Denver Post article, Cory 
Gardner Wrong on Greater Sage Grouse, and an explanation of why 
that is wrong.
    So I just really want to say this, Mr. Chairman. I respect 
your views, I disagree strongly with them, and we will have 
hand to hand combat on the floor if these bills get that far, 
which they may get voted out of this committee.
    But I want to make a point here. Recent polling of the 
American people shows that 84 percent support the Act that was 
signed in a bipartisan way by an overwhelming voice vote in the 
Senate. And again, signed into law by Richard Nixon. It has a 
strong record of success. I showed you the eagle. It is the 
whooping crane, the California condor, the brown pelican, 
species of sea turtle, this is a heritage for America. This is 
just as much a heritage, frankly, as our magnificent rivers and 
streams and mountains and forests.
    So wildlife-related recreation is a significant industry. 
And they are expressing their concern, the fishermen are, about 
some of these radical bills. Wildlife-related recreation was a 
$145 billion activity in America in 2011. Native plants and 
animals can provide life-saving medicines. So this Endangered 
Species Act shouldn't be back-door repealed this way with oh, 
you have to consider even more economics, you have to say that 
State scientists know more than national scientists.
    Let's not turn everyone against everyone. Let's work 
together for the best science and very clear moves to protect a 
species where it makes sense. Where it doesn't make sense, the 
law is already clear, they can't do it.
    So I look forward to working together maybe to moderate 
some of these radical bills. But if we don't moderate these 
radical bills, then we are going to have to get all of the 
people out there in this Country motivated to weigh in against 
what the Republicans are trying to do here today with this 
series of bills that really are a back-door repeal of the 
Endangered Species Act.
    Thank you, Mr. Chairman.
    [The referenced information follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    [The prepared statement of Senator Boxer follows:]

                   Statement of Hon. Barbara Boxer, 
               U.S. Senator from the State of California

    Director Ashe, thank you for dedicating your working life 
to protecting God's species. Thank you taking all the heat that 
you take. That is a compliment, because it means you are doing 
something and are fighting for what you promised you would 
fight for.
    If we listen to the folks on the other side of the aisle, 
and if they were here in Congress when the Endangered Species 
Act (ESA) was considered four decades ago, it never would have 
been passed into law. A recent poll of the American people 
shows that 84 percent support the ESA, which was passed by an 
overwhelmingly bipartisan voice vote in the Senate, and signed 
into law by President Richard Nixon. All the back door efforts 
by special interests to undermine the ESA have to stop.
    The ESA has a strong record of success, and without it, we 
might have lost the very symbol of our nation--the bald eagle. 
And the ESA helped to save other species, including the lesser 
prairie chicken, the whooping crane, the California condor, the 
brown pelican, and the Kemp's Ridley sea turtle. These species 
are part of America's heritage. They are just as much a part of 
our heritage as our magnificent rivers, streams, mountains, and 
forests.
    Further, wildlife-related recreation is a significant 
industry--accounting for nearly $145 billion in 2011. In 
addition, native plants and animals can provide life-saving 
medicines.
    I think it is important to note that today we are looking 
at a series of bills--eight Republican bills and one Democratic 
bill. I wanted to say thank you to Senator Booker for 
introducing his bill to ban inhumane traps in National Wildlife 
Refuges. I hope we will all work together on that bill.
    Today, I received a letter from several organizations that 
oppose every single Republican bill on the agenda. The groups 
include: American Bird Conservancy, the Animal Welfare 
Institute, the Audubon Society, Born Free USA, the Center for 
Biological Diversity, the Center for Food Safety, Clean Water 
Action, Defenders of Wildlife, Earth Island Institute, 
Earthjustice, Endangered Species Coalition, Friends of the 
Earth, Humane Society, National Federation of Fly Fishers, the 
International Fund for Animal Welfare, League of Conservation 
Voters, NRDC, Sierra Club, OCEANA, Southern Environmental Law 
Center, Union of Concerned Scientists, the WildEarth Guardians, 
and the Wyoming Wildlife Advocates. I ask unanimous consent to 
enter this into the record.
    I would also like to introduce into the record a Denver 
Post Op-Ed, ``Cory Gardner wrong on greater sage grouse,'' 
which explains why his legislation is the wrong approach.
    Let us work together using the best available science to 
protect species where and when it makes sense.
    I want to say this, Mr. Chairman, while I respect your 
views, I disagree strongly. We will have hand-to-hand combat on 
the floor if these bills are voted out of this committee. The 
Endangered Species Act should not be repealed in this backdoor 
way.
    I look forward to working together to moderate some of 
these radical bills. If we do not make significant changes, we 
are going to have to get the American people motivated to weigh 
in against what the Republicans are trying to do--repeal the 
Endangered Species Act.

    Senator Inhofe. Director Ashe, you are recognized for 5 
minutes.

 STATEMENT OF HON. DAN ASHE, DIRECTOR, U.S. FISH AND WILDLIFE 
                            SERVICE

    Mr. Ashe. Thank you, Senator. It is a joy to be here in 
front of the committee again. I am going to spend my time this 
morning just talking to you about the budget and the context 
for our budget for this year.
    The President's budget is about a $135 million increase for 
the U.S. Fish and Wildlife Service, a 9 percent increase. We 
certainly realize that in these difficult times that that is a 
significant investment. I hope that you will agree with me that 
it is a good investment.
    When you think about our budget, it really is a budget that 
is built on priority. And that is priority landscapes and 
priority species. We are putting those priorities behind 
efforts grounded in partnership and really epic scale 
partnership.
    The best example of that is the greater sage grouse. We 
started more than 5 years ago by reaching out to our State 
partners and building a framework for cooperative management of 
the sage grouse to hopefully avoid the need for a listing. We 
have worked hand in glove with former Governor Dave 
Friedenthal, a Democrat from Wyoming, and we are working today 
with Governor Matt Meade, a Republican from Wyoming. Wyoming 
has built a great framework for sage grouse conservation.
    We built a sage grouse task force with the Western 
Governors Association, which is chaired by Governor 
Hickenlooper from Colorado, a Democrat and Governor Meade from 
Wyoming, a Republican. We built a conservation objectives team 
report jointly with our State colleagues to identify the 
actions that will be necessary to conserve the sage grouse and 
hopefully avoid the necessity to list it under the Endangered 
Species Act.
    We reached out to the BLM and the U.S. Forest Service and 
they began a public and transparent process of land management 
planning to help conserve the sage grouse. We reached out to 
the U.S. Department of Agriculture and the Natural Resource 
Conservation Service has been an exemplary partner, putting 
over 4 million acres, almost $400 million of investment in 
private lands, to incentivize and encourage conservation of the 
sage grouse.
    Another example is in Harney County, Oregon, where we are 
signing candidate conservation agreements with assurances for 
ranchers. We now have nearly a million acres of private ranch 
land signed up in Oregon to conserve the sage grouse. We had a 
rancher, Tom Strong, who coined perhaps the best conservation 
phrase of the year last year, What's Good for the Bird Is Good 
for the Herd, recognizing that there is an economy between 
good, sustainable ranching and good conservation of the sage 
grouse.
    Examples of working with the EPA and the Corps of Engineers 
and the USDA and NOAA and the Great Lakes States to keep the 
Asian carp out of the Great Lakes, and our budget provides 
enhancement for that. Examples in the Great Plains, working 
with the range States to conserve the lesser prairie chicken, 
as the chairman said, not through Fish and Wildlife Service, 
Federal regulation, but by standing behind a five-State, range-
wide plan.
    These types of examples require field capacity. They 
require innovative, energetic, professional people in the field 
and that is what our budget will do for us.
    Monday, a Washington Post editorial writer, E.J. Dionne, 
began his column with the observation that there are few 
moments of grace in our politics these days. But Mr. Chairman 
and members, I am here to tell you that there are many moments 
of grace every day by the men and women in the United States 
Fish and Wildlife Service and their partners, people like 
Angela Sitz, who forged those relationships and those candidate 
conservation agreements in Harney County Oregon. People like 
Andy Ewing, the manager of San Diego Bay National Wildlife 
Refuge, and San Diego County declared May 20th, 2014, as Andy 
Ewing Day because of his exceptional work with local 
communities.
    People like Jeremy Coleman, our white nose syndrome 
coordinator, who despite this devastating disease in bats, 
maintains an infectious enthusiasm that we can be successful. 
People like Greg Noydecker, who has worked with the ranchers in 
the Big Hole Valley in Montana to avoid the need to list the 
Arctic grayling and who has forged friendships with ranchers 
like Don Reese, lasting, durable friendships. People like Pam 
Scruggs, in our International Affairs program, who worked 2 
years ago in the Convention on International Trade and 
Endangered Species on the listing of sharks to prevent the 
finning practice in sharks. When we went to the CITES COP and 
she met for the first time some of her international 
counterparts, one of them from Germany said, oh, you are the 
famous Pam Scruggs, because she had done such good work with 
them.
    People like Dave Hendricks, who is the manager of Neosho 
National Fish Hatchery. When I went to Neosho, Missouri and met 
with Dave, the mayor came and the city and town councilmen came 
and told me of the role that Dave and his team plan in that 
community. So these are the people and the work of the U.S. 
Fish and Wildlife Service. And they deserve your support.
    [The prepared statement of Mr. Ashe follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    Senator Inhofe. Thank you, Director Ashe. We will have a 5-
minute round of questions, we will not have a second round. 
Because we do have another panel.
    First of all, as I said in my opening statement, Director 
Ashe, the Fish and Wildlife request for fiscal year 2016 is 
another $23 million specifically for listing alone. Now, the 
Service's budget justification references a backlog of 609 
other petitions for listing that are in addition to settlement 
agreements. I would just say, if you look, for example, at the 
burying beetle, that originally came from the east coast and 
the populations now have been expanded and are found in my 
State of Oklahoma and Nebraska, in Arkansas and some other 
areas. We went through this thing.
    When I go back to Oklahoma, it doesn't matter who we talk 
to in the rural areas. It can be farmers who are concerned 
about, can they go out and plow their fields without disrupting 
this critter's habitat? People who might be drilling, people 
who might be doing anything on the land, it is something that 
is very, very costly.
    What about the delisting? You are requesting more money for 
listing, and yet that is not the problem. It is the delisting. 
Do you think that we have an adequate system to address the 
delisting and when is that going to be set in place?
    Mr. Ashe. Mr. Chairman, the increases in our budget are 
actually, we are directed to fulfilling our responsibilities, 
like 5-year status review, which support the analysis of 
species that are already listed and will support our review to 
determine if they should be downlisted or delisted.
    For instance, with the American burying beetle, we are 
initiating next month a range-wide comprehensive status review 
for the species. So we will engage the Service's experts, the 
States, other experts, and we will use that status review to 
determine whether delisting or downlisting of the American 
burying beetle----
    Senator Inhofe. No, wait a minute. You are going to do this 
study to see how many should be delisted? Is this what we are 
looking at?
    Mr. Ashe. We are going to do it to determine the status of 
the species, and then based on that, we could make a proposal 
to downlist----
    Senator Inhofe. Well, no, we are talking about having 
listed, remember the 12 versus hundreds that I used in my 
opening statement? Why is it that we are spending all this time 
on listing and not delisting? We have talked about this for a 
long period of time. I can remember letters sent back, and I 
have copies right here, back to 2011, addressing this, along 
with some sue and settle problems that we have.
    But it is the delisting. What is my answer to the people 
when I go back to western Oklahoma and they say, how much 
longer is it going to be until we do something with this vast, 
this growing beetle or whatever you want to refer to it as?
    Mr. Ashe. It will be this coming month, when we start the 
status review.
    Senator Inhofe. How long do you think that review will 
take?
    Mr. Ashe. I can't really give you that answer right now, 
Mr. Chairman.
    Senator Inhofe. Can you tell me within 6 months how long it 
will take?
    Mr. Ashe. I could tell you it would take 6 to 18 months, 
would be my guess, to do the status review.
    Senator Inhofe. All right, 6 to 18 months, somebody write 
that down. We want to get some conclusion on this thing.
    So the backlog for delisting or downlisting the species, 
right now you can't tell us what the specific backlog is for 
delisting or for downlisting species today?
    Mr. Ashe. I can tell you we have a backlog of species, we 
have over 200 species that are already listed and for which we 
have not developed recovery plans.
    Senator Inhofe. OK.
    Mr. Ashe. And so we have, we definitely have a backlog of 
need to deal with status assessment of species to consider 
delisting or downlisting. But Mr. Chairman, I think what you 
realize, and I hope all the other members realize, we have an 
affirmative duty to list. The law requires us to deal with 
petitions. The law requires us to make 12-month findings on 
listing.
    So by law, our highest priority is to consider the listing 
of species. The law does not give us any latitude to do that. 
When I have a petition, I have 90 days to make a determination 
on the petition. If I make a positive finding on that at 90 
days, I have 1 year to do a status review.
    Senator Inhofe. The mission, though, originally, and you 
probably have done a lot of study on this, all the way back to 
1970, was to list, but also to delist if you are successful. 
You could almost come to the conclusion that you are not 
successful if you haven't found an opportunity to delist some 
amount, some numbers of species, or downlist them, and yet we 
keep adding more and more to the list.
    So that is what I think everyone wants to see, the results. 
I think you would say this morning, recognize the fact that 
sometimes you list something and all of a sudden some programs 
are successful, as in, I would say, the burying beetle, because 
it is now found in places where it never was found back when it 
was originally listed from east coast information. Is that 
correct?
    Mr. Ashe. But in order to show that, Senator, you or I or 
others may believe that. But in order to propose a delisting or 
a downlisting, I have to show that. So that is the purpose of a 
5-year review.
    Senator Inhofe. So it might be a flaw in the process, 
though. You are doing your job but perhaps we need to make some 
changes in the Act.
    Mr. Ashe. I think the most important things, Mr. Chairman, 
are the resources to do the job. The job is doable, and I think 
we are showing, as you acknowledge, in this Administration, by 
the end of this Administration if we stay on course we will not 
just have delisted more species than any other Administration. 
We will have delisted more, due to recovery, more species than 
all previous Administrations combined. So I think we are 
focusing on delisting. We need the resources to do the 5-year 
status assessments. We need the resources to do the recovery 
planning. We need the resources to do the delisting.
    So when you are looking at our delisting budget, or our 
listing budget, that is our budget for listing and delisting. 
And so we need the resources to do that.
    Senator Inhofe. My time has expired, but I will show you 
where we got the information in terms of the listing. And that 
is why I wanted to bring it up this morning.
    Senator Boxer.
    Senator Boxer. Thanks so much, Mr. Chairman.
    Well, the fact that you are delisting shows that the ESA is 
working. I am just looking at the different Administrations. 
Ronald Reagan administration, they delisted 5 due to recovery, 
Bush 1, Clinton 6, Bush 2, 7 and Obama 11. So that says to me 
you have flexibility in this law. And yet all these bills that 
the Republicans have filed say, well, we just need more 
flexibility. That is just a cover. That is just a cover. That 
is just what they say. They just want to stop this Act from 
functioning.
    I feel that the way the Obama administration has proven 
that this Act works is when you see this recovery. So I want to 
ask you about Senator Gardner's bill which is so controversial 
that there has been a big op-ed in his own paper back home, and 
all these groups oppose it. He basically says, for 6 years, you 
can't do a thing about the greater sage grouse. And as I look 
at the ESA, its beauty is its flexibility. I think we are 
proving it in real terms on the ground.
    So I would like to ask you, what would it mean to this 
particular species if all of a sudden your hands were tied for 
6 years? It would mean that the States would develop the plans, 
you are out of it completely for whatever God knows reason, and 
then the States decide what we can do on Federal lands. So if 
you could tell me how you think that would impact the recovery 
of the sage grouse, the saving of the sage grouse?
    Mr. Ashe. I think as you said, the Gardner bill essentially 
defers completely to State plans that do not exist other than 
in the State of Wyoming, as I said, we have a very good plan 
for sage grouse conservation. But it defers to State plans that 
don't exist and provides no standards for those plans at all. 
So there is no functional standard that goes into place for 
those plans.
    So my sense about the Gardner bill is that it is simply 
delay. In the meantime, what we will see for sage grouse is 
more fragmentation, more loss of habitat and we will move 
toward a crisis by delay.
    Senator Boxer. Right. Well, this bill is even worse. It 
says for 6 years you can't do any listing. So it basically, 
what it does for the sage grouse, it repeals the Endangered 
Species Act for 6 years. It is a make believe there is none 
because we don't like what is happening.
    But your comment, what's good for the bird is good for the 
herd I thought was a real takeaway. The fact is, when we work 
together on this with the flexibility that we have, everybody 
is a winner. I don't see a situation where that hasn't been the 
case.
    In my own State, the Federal Government acting as a 
catalyst has brought together everybody in terms of our 
endangered species. My God, we have had huge successes with 
conservation plans drawn up by the entire region.
    You are pointing out that employees in your shop are being 
cited in San Diego as heroes, this is what it is. This 
shouldn't be about, well, my State scientists know better than 
your State scientists. This isn't about that. It is about let's 
do what is right to protect God's species. That is our job. We 
inherited them. And they are glorious.
    And what right do we have to sit here and say that, who 
cares how many species die off? Well, that is not right. It is 
a moral issue to me. It may not be to the next person, and I 
don't preach about it. They can decide what they think is moral 
and what they don't think is moral.
    But the fact is, if we work together, it is a win-win all 
across the board. So can you tell us a little bit about the 
flexibility in the law that so many people are excited to see 
changed, either changing it by the back door or even perhaps as 
Senator Inhofe said, maybe the law needs to be changed so that 
you have more flexibility. Tell us about the flexibility in 
that visionary law that was signed by Richard Nixon that has 
been supported across the board by bipartisanship and 82 
percent of the people support it in the Nation. Tell us about 
the flexibility.
    Mr. Ashe. There are some key flexibilities in the law, one 
of which was mentioned earlier. When we listed the northern 
long-eared bat, we did so with the 4(d) rule that clarifies 
that white nose syndrome is the principal threat and therefore 
we can provide, we can insulate a broad range of activities 
from the regulatory restrictions in the law. We used the same 
tool with the lesser prairie chicken range-wide plan, where we 
listed the bird as threatened but we deferred largely to the 
well-designed, comprehensive conservation strategy that five 
States worked together on.
    When we designate critical habitat, we can remove areas 
from critical habitat for economic, for social or for reasons 
or national security. And we do that on a regular basis. So 
there are many flexibilities in the law. We provide a candidate 
conservation agreement with assurances, tells a rancher that if 
a species is listed and you continue to implement this 
voluntary agreement, then you need do nothing further in the 
law, so we can provide regulatory predictability for ranchers 
and farmers. We are doing that throughout the Country today.
    Senator Boxer. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Director Ashe, the challenge in South Dakota in a lot of 
cases is one of trying to coordinate between the agency and 
individual farmers and ranchers that have contracts established 
for landownership or at least the availability for leases and 
so forth. Sometimes there are permanent leases on land. The 
relationship becomes strained on an occasional basis, and it is 
unfortunate.
    Part of it is because of the tactics that in many cases are 
being employed by law enforcement officers who are also doing 
what I believe is their best to make communications with 
landowners. But in this time in which we see across the Country 
a concern about interaction between law enforcement personnel 
and individuals in the public, let me just share with you a 
letter that we got. I have tried to abbreviate a little bit. 
But I want to share with you some of the frustration that 
individual farmers and ranchers that have had leases for years 
with U.S. Fish and Wildlife, what they have shared with us.
    South Dakota landowners and farmers have allowed waterfowl 
production area easements with U.S. Fish and Wildlife Service 
for years. They believe that they have found in many cases a 
rather difficult and uncooperative approach in determining 
which acres are actually protected by the Federal easements. In 
some cases there is no math, it is simply an agreement that had 
been done perhaps back in the 1940s.
    Now, in the particular case that I am going to share, the 
constituent related to us that he had a story about a Fish and 
Wildlife agent appearing in their front yard with a flak jacket 
and side arms, intimidating them simply by his appearance and 
his tone. I am particularly troubled as the taxpayer dollars 
are funding this type of aggressive approach to citizens who 
are voluntarily and proactively enacting conservation measures 
on their own land as they have been doing for generations.
    How do I respond to them when they ask me why they are 
being made to feel as if they are law breakers, as if they are 
at risk? And as if rather than being a partner they are being 
seen in almost an adversarial type of role?
    It is just one example. I have a lot of examples, literally 
relating back to the time in which I was Governor. In fact, I 
actually asked to have one of your officers removed from his 
post because of the interaction with local sportsmen in the 
central South Dakota area.
    But there seems to be a breakdown in terms of the attitude 
of who knows best. Whether or not it is simply a matter of if 
you are a Federal officer, he seemed to have the upper hand 
when it came to the citizens that are literally paying the bill 
for the services. And in a lot of cases, trying to cooperate in 
allowing for easements for waterfowl production areas.
    How do I respond?
    Mr. Ashe. I don't know the specifics of the case, so I 
would like to find those out and I can come talk to you 
personally about that, Senator. I would like to do that.
    Senator Rounds. Yes, sir.
    Mr. Ashe. But I will theorize here that if a law 
enforcement officer goes to a landowner in South Dakota, it 
would be because we have purchased an easement. So it would not 
be voluntary. So that would have been an easement that we have 
purchased and the taxpayer has paid for.
    Senator Rounds. On a voluntary basis.
    Mr. Ashe. Sure. It was a voluntary transaction. But the 
taxpayer has an interest in that property because we have paid 
for it. So we do aerial surveys and so they must have seen 
something on the ground that caused them concern. Because we 
don't send a law enforcement officer unless they have observed 
what they believe to be an easement violation.
    Senator Rounds. For an easement violation you would send an 
armed officer in a flak jacket?
    Mr. Ashe. Not always, but it, I mean, our officers are 
like, if a Montgomery County police officer were to come to my 
home, they would have a side arm and they would be wearing 
protective gear that sworn officers wear. So I understand that 
that can be intimidating to people. I do understand that.
    Senator Rounds. It is not a way to get more easements, that 
is for sure.
    Mr. Ashe. But I would say overall, we have an 
extraordinarily positive relationship with landowners in South 
Dakota. We have hundreds of people waiting to have the Fish and 
Wildlife Service secure easements on their property because of 
the relationship that we have.
    So this could be an exception and I would like to look at 
it and come talk to you personally.
    Senator Rounds. I would like that opportunity. My tie is 
expired, but I would like an opportunity to visit further.
    Mr. Ashe. Thank you, Senator.
    Senator Rounds. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator Booker.
    Senator Booker. Thank you very much, Chairman Inhofe.
    Senator Boxer keeps talking about Richard Nixon. I would 
rather talk, this was passed in 1973 to a unanimous vote in the 
Senate, as well as a 355 to 4 vote in the House. And President 
Nixon said there is nothing more priceless and more worthy of 
preservation than the rich animal array of life with which our 
Country has been blessed. And that is very true.
    And the success that this legislation has had, it has had 
more success, frankly, than most governmental departments can 
have: 99 percent of the wildlife under its protections have 
been preserved. But more importantly, when it comes to the time 
line, it has often taken the huge task of recovering species 
over decades and the majority of the ones that you are 
recovering are within the original time lines that were 
projected. It didn't go over. This often takes decades to 
accomplish this.
    And you have saved countless species. Senator Boxer put up 
the bald eagle. But there is the Florida panther, the 
California condor, the gray wolf, the American alligator. And 
while these successes are impressive, the reality is we are in 
a global crisis of species extinction that is shocking. 
Shocking. Most people have no idea that it is estimate between 
one-sixth and one-half of all the species of all species on the 
planet earth are threatened with extinction in this very 
century. That is chilling.
    Scientists now believe that the planet is currently faced 
with a mounting loss of extinctions that threaten to rival the 
five great mass extinctions of the past. People are saying we 
are now in the next major mass global planetary extinction. And 
that is unacceptable.
    According to a Living Planet report released in 2014 by the 
World Wildlife Fund, it is estimated that the world's 
populations of fish, birds, mammals, amphibians and reptiles 
fell by over 52 percent of all life on earth, 52 percent 
between 1970 and 2010. Stated another way, our planet earth 
lost half of its wildlife in 40 years. That is shocking and 
stunning and has implications that cannot be monetized.
    So I think our focus should be on strengthening rather than 
weakening the ESA. You have talked about flexibilities, you 
have talked about how under the Obama administration, delisting 
has been done more than the previous Presidents since this has 
passed. So I would like to run through questions, keeping your 
answers as short as possible, because the great Senator Inhofe 
runs a tight ship here. Can you do that for me?
    Mr. Ashe. I can try.
    Senator Booker. In relation to the Refuge From Cruel 
Trapping Act that I spoke about earlier, you would agree with 
me that wildlife management within the refuge system should be 
as humane as possible, yes or no?
    Mr. Ashe. Yes.
    Senator Booker. OK. And Director, in your written 
testimony, you describe some trapping activity on the refuge 
system in New Jersey. But I know you are aware that New Jersey, 
similar to other States, has banned the use of leg-hold traps.
    Mr. Ashe. Yes.
    Senator Booker. Yes, you are aware, OK. And in some States 
like New Jersey the ban on leg-hold traps, the Fish and 
Wildlife Service complies with those States' bans and currently 
prohibits the use of leg-hold traps.
    Mr. Ashe. Yes.
    Senator Booker. Go ahead, give a little flavor.
    Mr. Ashe. We reserve the right to do our job. In some 
cases, with States like California and other places where they 
have large-scale bans on certain trapping methods, we do in 
some cases use methods that are not authorized by State law. 
Where we have to for conservation of the endangered clapper 
rail or other things.
    Senator Booker. Very narrowly tailored.
    Mr. Ashe. Very narrowly defined.
    Senator Booker. Very narrowly defined, not the kind of 
trapping that is being proposed to be done on our refuges. So 
Director, in relation to the Endangered Species Act, you would 
agree that listing and delisting decisions are best made by 
science and the available science there is, right?
    Mr. Ashe. Yes.
    Senator Booker. So you would agree that listing and 
delisting decisions should be made by experts, scientists, not 
by Congress?
    Mr. Ashe. Correct, yes.
    Senator Booker. And this is especially true that these 
decisions should be made based on science by the agency, not by 
all the political forces that often work, the science of the 
agency best is insightful in cases like the sage grouse, the 
gray wolf, where political emotions often run awry? But the 
design of your regulatory regime is that science should 
prevail, is that correct?
    Mr. Ashe. That is correct.
    Senator Booker. OK. So finally, in my last 30 seconds, 
Director, I note that funding levels for the Federal Endangered 
Species program have been insufficient, not just for listing, 
but also for the delisting process. So can you please describe 
the importance, especially for those people who are looking for 
delisting, that we have better funding for you to implement the 
ESA?
    Mr. Ashe. As I said to the Chairman, I think that the major 
impediment to further progress on delisting of species is our 
capacity to drive recovery. One of the big increases in our 
budget for this year is in our cooperative recovery program, 
where we are looking for species in and around national 
wildlife refuges, where a relatively small investment can make 
a quantum leap in terms of recovery and getting species off the 
list.
    Just this last year, we delisted the first fish ever due to 
recovery, the Oregon chub, because of that little effort, 
little bit of funding that got it over the edge. So we are 
showing that by some relatively modest effort, we can make 
quantum leaps in recovery and delisting. Those increases are 
reflected in our budget.
    Senator Booker. Mr. Chairman, thank you for indulging me. 
The more resources you have, the more delisting you could 
probably do. Thank you, sir.
    Mr. Ashe. Exactly.
    Senator Inhofe. Thank you, Senator Booker.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman, and thank you 
Director, for being here today.
    The Fish and Wildlife Service budget request seeks $164.8 
million for land acquisition. That is $58.5 million in 
discretionary funding and $106.3 million in mandatory funding 
in fiscal year 2016. That is an increase of $117.2 million from 
your 2015 levels.
    Now, the national wildlife refuge system has a deferred 
maintenance backlog totaling $1.28 billion. So why are you 
proposing to acquire more Federal land when we have this huge 
maintenance backlog? I think we should be addressing that. What 
is your response?
    Mr. Ashe. Two-fold. First with regard to the maintenance 
backlog, I need to note that in the last 5 years, we have 
decreased our maintenance backlog by 50 percent, one-half. So 5 
years ago our maintenance backlog was $2.6 billion. We have 
managed that effectively. We got a lot of help from the 
American Reinvestment and Recovery Act. We have scrubbed 
projects throughout the refuge system, we have placed priority 
where necessary. And we have reduced our backlog by 50 percent.
    So I feel like the Fish and Wildlife Service has been an 
excellent steward of our maintenance backlog. Our total 
maintenance backlog now is less than 4 percent of our asset 
value, which I would say any private company would envy that 
type of maintenance backlog.
    So I think we are a very good steward of national wildlife 
refuges.
    Senator Fischer. I have a bunch of questions. With the 
recovery funds, wasn't that just a one-time shot, though? So 
how much of that backlog was reduced due to a one-time shot?
    Mr. Ashe. I can't give you the exact figure, but a 
substantial amount. Because we got a substantial funding for 
facilities and for roads through the Reinvestment Act.
    Senator Fischer. Moving forward then, you still have to 
look at that $1.28 billion that I don't anticipate you are 
going to get another one-time shot to address it.
    Mr. Ashe. But I would say that our acquisitions, those 
planned acquisitions, are not going to substantially increase 
our maintenance backlog. We are actually very careful now too, 
as we acquire lands, that we don't acquire liabilities. So we 
look before we leap in terms of land protection and 
conservation. I think we are doing an excellent job.
    The other thing is, a lot of our effort is geared toward 
easement, particularly in the Dakotas. Our principal investment 
is to conserve lands through easement, conservation, where we 
don't inherit a maintenance backlog. Because we have good 
stewards, those ranchers and farmers on the landscape.
    Senator Fischer. In my State as well. You are looking, I 
believe, at supporting 34 land acquisitions and over 100,000 
acres. Do you have plans for any acquisitions in the State of 
Nebraska?
    Mr. Ashe. We have active conservation projects in the 
rainwater Basin, which we have conservation projects along the 
Platte River. I don't think we have any specific proposals in 
this budget for Nebraska, but we do have active acquisition 
efforts through the North American Wetlands Conservation Act 
and with our Federal Duck Stamp funding and other measures.
    Senator Fischer. Senator Rounds and I were discussing the 
Niobrara Confluence in the Ponca Bluffs Conservation Area. He 
and I have, as you know, a directed interest there. Are you 
moving ahead with plans there on acquiring that land through 
easements? As you know, both Senator Rounds and I have heard 
from hundreds of landowners who have concerns with that.
    Mr. Ashe. I am not aware of that in particular, but let me 
get back to you for the record.
    Senator Fischer. That would be good. Are you going to move 
forward with any acquisition plans or plans to establish a 
refuge or conservation areas if you do meet local State 
opposition?
    Mr. Ashe. Our longstanding policy is that we do not 
establish refuges over the objections of State and local 
parties, and certainly not Members of Congress. I believe we 
have a very strong record in that regard. Just in the last 
year, we have withdrawn efforts in California, in Alabama, and 
we have moved through public controversy in places like the 
Everglades headwaters in Florida where we had significant 
opposition. But we sat down, we worked through those efforts.
    So I think we have a very good track record.
    Senator Fischer. I appreciate that. In the area that I live 
in, we do have wildlife refuges, and it is important to have 
that local buy-in so that you can have a more welcoming 
atmosphere for people to come and enjoy the beauty that 
surrounds us as well.
    Mr. Ashe. We believe the same thing, Senator. I believe we 
have proven that, as I mentioned, Andy Ewing and his role in 
San Diego. Andy is an exceptional individual, but that is not 
the exception in the Fish and Wildlife Service; by and large it 
is the rule.
    Senator Fischer. Thank you, sir. Thank you, Mr. Chairman.
    Senator Inhofe. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    The Endangered Species Act is not broken. Since this 
bipartisan law was enacted in 1973 under President Nixon, it 
has been 99 percent successful in recovering listed species. I 
am a firm believer that our policy should be driven by science, 
especially when it comes to preserving biodiversity in our 
American heritage. No one wants to see a species get listed.
    For example, I don't want to see the sage grouse listed. I 
can tell you a lot of folks in Oregon don't want to see it 
listed. And you can bet the sage grouse doesn't want to see it 
listed. So that means they are close to, or inching closer to 
extinction.
    The fact is that it is our responsibility not to politicize 
the science or the biology needed to recover a particular 
species, but to heed the warning signs given to us by science 
and address the issues so a species can recover. So I am very 
pleased that you are here to testify today.
    I wanted to focus specifically on the sage grouse. I 
understand the Federal plans for sage grouse conservation on 
BLM lands are going to be finalized and we will have that later 
this month?
    Mr. Ashe. Senator, their schedule right now is to finalize 
the plans in early June.
    Senator Merkley. OK, I look forward to that. My 
understanding is that these plans have been developed 
collaboratively with input from States and local stakeholders 
to help inform how it should be designed.
    Mr. Ashe. There has been, over the course of three full, 
more than 3 years, been exhaustive public process.
    Senator Merkley. So there is a genetically distinct group 
of sage grouse in California and Nevada. My understanding is 
that the efforts to preserve them have led to a not warranted 
decision in terms of listing. Are there lessons learned from 
that population that can be applied to the balance of the 
population of sage grouse?
    Mr. Ashe. There certainly are, the bi-State sage grouse is 
shared between Nevada and California. They suffer from the same 
types of threats, largely habitat disturbance. In that case we 
have BLM and the Forest Service commit to conservation plans 
that will conserve the sage grouse. We have Natural Resource 
Conservation Service also engaged there on private lands. We 
had cooperation from the two States.
    So that is a microcosm of the larger discussion and public 
process that we have going on with the greater sage grouse.
    Senator Merkley. There is a plan in Oregon that is called 
SageCon, that is about Oregon working with stakeholders on 
private lands and State lands to try to stabilize the 
population and hopefully to prevent the necessity of being 
listed. Are there insights from that that have been 
incorporated into the plans for the BLM lands?
    Mr. Ashe. Yes, I think the State of Oregon has been a great 
partner in this context. We expect to have a very substantive, 
strong program through the SageCon effort in Oregon. Again, 
they are a very close collaborative relationship between the 
planning at the State level and the planning that BLM and the 
Forest Service are doing. So that kind of ongoing discussion, 
so that the planning process that BLM is doing and the Forest 
Service is doing are informed by the planning process at the 
State level and vice versa.
    Senator Merkley. Excellent. That sort of collaboration 
gives the best chances for success. One of the things that we 
have really been encouraging are the candidate conservation 
agreements with assurances. The Secretary of Interior came out 
and publicized those agreements. Ranchers have taken a close 
look at them. Many have signed up. But few have been fully 
enrolled. That enrollment process has yet to be completed.
    Is there anything that we should do to encourage the 
acceleration of the enrollment process so that these ranchers 
who are willing to enter these agreements on how they manage 
their own lands are protected from future ill effects, if you 
will, of a listing?
    Mr. Ashe. I think some of that is a little bit organic. We 
have to continue to build spokespeople in the ranching 
community, people with whom we have a trust relationship, who 
can help us kind of expand that relationship. I think that is 
happening.
    The other thing is the topic of the day, which is the 
budget resources. We have to have the people in the field who 
can go out and meet with these people. Because a lot of times 
they are not going to sign up----
    Senator Merkley. I am almost running out of time. The point 
I want to make is, many ranchers have signed up. But it is up 
to the Fish and Wildlife Service to complete the enrollment 
process.
    Mr. Ashe. Right.
    Senator Merkley. They are waiting. They are willing 
partners, ready partners. But we need to complete and honor the 
deal.
    Mr. Ashe. That is our resource constraint.
    Senator Merkley. Well, I will certainly work with my 
colleagues. I think both sides of the aisle benefit greatly 
from these sorts of voluntary efforts. Now my time has expired, 
but I hope that these collaborative efforts that are going on 
in Oregon will be effective in stabilizing the population 
preventing the necessity to have a listing.
    Mr. Ashe. Thank you, sir.
    Senator Merkley. Thank you.
    Senator Inhofe. Thank you, Senator Merkley. Senator Crapo.
    Senator Crapo. Thank you, Mr. Chairman.
    Director Ashe, I want to use my time to talk with you about 
the greater sage grouse. As I am sure you are very well aware, 
in March 2012, the U.S. Fish and Wildlife determined that the 
greater sage grouse across the 11 western State range was 
warranted for listing under the Endangered Species Act, but 
precluded because of other, higher priorities. This decision 
placed the greater sage grouse on a candidate list whereby, due 
to court order, the Service must address its conservation 
status and decide by September 30th of this year whether to 
list the species.
    As a result of that, States across the west, including 
Idaho, have been working with various Federal agencies 
involved, namely Fish and Wildlife Service and the Bureau of 
Land Management, on conservation management plans that will 
protect the grouse and take into account unique circumstances 
within each State. It has been the hope of all of those 
discussing this that we could use this collaborative process to 
avoid a listing and if any kind of activity was required, to 
work on something collaboratively to make it successful.
    However, what I want to focus my questions on is a letter 
that came from your office in October 2014. I ask unanimous 
consent to make this letter a part of the record.
    Senator Inhofe. Without objection.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Senator Crapo. You are probably familiar with the letter I 
am referring to. I have a copy for you if you want it, but I 
know you are familiar with it. In this letter, the Fish and 
Wildlife Service seems to have once again moved the goalpost 
and basically acted, at least many of us in Idaho feel, 
unilaterally by proposing land withdrawals on millions of acres 
in sage brush focal areas.
    That seems to us to be contradictory to the collaborative 
effort that we are all seeking to engage in, because now the 
maps that came in conjunction with this letter have essentially 
put parameters on the entire discussion about how to come up 
with sage grouse protection plans that we feel are impediments 
to the collaborative process, rather than helping that process 
move forward. I would appreciate your observation on this.
    Mr. Ashe. Sir, the letter there refers to what we would 
call strongholds, what the BLM has called sage grouse focal 
areas in their planning process. It doesn't move the goalpost. 
What that is is a refinement. Previously we had identified 
priority habitat for the sage grouse. We were looking for 
protections. If we are going to avoid the need to list, then we 
have to show that there are meaningful protections in place 
across the priority habitat.
    The BLM asked us to refine that. Is there a best of the 
best habitat? And so that is what we did. We provided them with 
really what is the very best, highest quality habitat where we 
do need the strongest protections possible.
    So if we are going to reach a not warranted conclusion, 
then we need to see large pieces of the landscape where sage 
grouse, where we are highly confident that sage grouse are 
going to persist into the future. So those strongholds, or sage 
grouse focal areas, are key to that.
    It doesn't mean nothing can happen in there. It means that 
we will have, with oil and gas, we will have no surface 
occupancy without exceptions. It means with grazing that those 
areas will receive priority in terms of the BLM's analysis. 
Because grazing, as we saw in Harney County, Oregon, can be 
helpful to sage grouse conservation. But they will receive 
priority in terms of the evaluation process to make sure that 
we are meeting our grazing standards.
    Senator Crapo. Let me interrupt there. Are you telling me 
that in these areas that there are not necessarily going to be 
automatic withdrawals, but a State like Idaho, for example, 
could propose management plans that would satisfy the 
requirement that these areas would require for proper 
treatment?
    Mr. Ashe. We have recommended that they be withdrawn from 
the Mineral Leasing Act. So from hard rock mining, we have 
recommended that those areas be withdrawn. Because the Mineral 
Leasing Act provides us with no way, once a claim is made under 
the Mineral Leasing Act, provides us with very limited tools to 
protect sage grouse.
    Senator Crapo. So Idaho is more focused primarily on the 
grazing side of this question.
    Mr. Ashe. Correct. And I believe they came to us with some 
legitimate questions and concerns about how grazing would be 
managed. I think we have answered those questions. Many of 
them.
    Senator Crapo. My time has run out. I would just say, there 
is still a very high level of anxiety.
    Mr. Ashe. I understand.
    Senator Crapo. We have a very strong and I think a very 
capable and effective plan and planning process underway. We 
want to be able to collaborate with you to be able to make that 
happen, rather than having rigid edicts come down that 
interfere with our ability to do exactly what the objective is, 
which is to protect the sage grouse.
    Senator Inhofe. Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Chairman.
    Today's hearing unfortunately continues something that 
would have dismayed the predecessor in my seat, John Chaffee of 
Rhode Island, who is to this day revered as an environmental 
leader by his home State. But by my count, we have Republican 
amendments which, eight to zero, go against the protections of 
the Endangered Species Act. We recently had a hearing on the 
Clean Power Plan in which the majority's witnesses were 
completely stacked in favor of the polluter interests. We have 
an absolutely Republican wall of antagonism to the new EPA rule 
protecting the waters of the United States. And their budget 
efforts are a relentless attack against those who protect our 
resources and our godly heritage of nature.
    It causes me to wonder, is there a single Federal 
environmental protection that our Republican friends like 
today. When I consider the Republicans in the past who helped 
build these protections, again, I am somewhat dismayed that 
there is this relentless single-mindedness, apparently as is 
the case now.
    I don't have a sage grouse in Rhode Island. There is not 
one to be found.
    Mr. Ashe. There used to be a sage hen.
    Senator Whitehouse. Was there a sage hen?
    Mr. Ashe. A heath hen, it was the eastern sage grouse. It 
is no longer with us.
    Senator Whitehouse. Well, there is an instructive point 
that I did not know. Helps remind us why we do the Endangered 
Species Act.
    I want to ask you a different question. Rhode Island is a 
coastal State. Coastal States are seeing a triple whammy coming 
from climate change. We are seeing the same land habitat 
changes that non-coastal States experience. We are also seeing 
that the margin between land and sea, sea level rise that is 
threatening to or beginning to overwhelm features like salt 
marsh. And third, we are seeing the changes in the seat itself, 
the warming temperatures, the increased acidification. We 
haven't seen acidification of the oceans measured to increase 
like this in, forget the lifetime of our species on the planet 
and millions and millions of years.
    So what particular attention should the Fish and Wildlife 
Service be giving to those coastal areas where the climate 
effects are coming at us through so many different vectors?
    Mr. Ashe. You have hit many nails on the head there, 
Senator. I think the phenomenon of climate change is one which 
is an overarching threat to the conservation of species. Sea 
level rise being one actually where we have given better tools 
to managers than anywhere else.
    So we actually see innovation in places like the Albemarle 
Peninsula in North Carolina where we are working with Duke 
Power and the State of North Carolina and the Nature 
Conservancy and others to begin to plan for an orderly 
transition of that landscape. We manage nearly half a million 
acres of national wildlife refuges there. The future for those 
refuges is to become estuarine habitat, not the pocosin bogs 
that they are today.
    So we are working with partners to kind of realize that and 
plan for the future. But that as well is a resource constraint. 
We need better science. We need more people in the field to 
work with local communities in terms of how we can adapt, how 
we can build alliance with private landowners to better manage 
land, so that we can make an orderly transition occur.
    So certainly sea level rise, whether it is sea turtle or 
piping plover or red knot and horseshoe crabs, climate change 
is a large, overarching factor that we have to understand 
better if we are going to be good stewards of these creatures.
    Senator Whitehouse. With 8 seconds remaining, I don't think 
I can top the way you ended. So I will leave it there. Thank 
you very much.
    Senator Inhofe. Thank you, Senator Whitehouse. Senator 
Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman. Director Ashe, 
good to see you. I have so many questions for you that I could 
spend the next 3 days asking you questions. So we are going to 
submit a number for the record, and if you can try to answer 
these succinctly, it would be helpful so we can get through at 
least a couple in the 5-minutes that I have.
    First, I want to talk about the Alaska National Interest 
Lands Conservation Act. Are you familiar with ANILCA?
    Mr. Ashe. I am.
    Senator Sullivan. Great. There are a lot of Alaskans who 
actually don't think your agency is that familiar with ANILCA, 
because there is a strong sense in my State that your agency 
continually violates that important Act. And to Senator 
Whitehouse's comments, I will tell you this, today's hearing 
but more your actions would bring great dismay to one of 
Alaska's great predecessors in the U.S. Senate, Ted Stevens, 
who crafted ANILCA, knew it was a finely crafted balance and 
yet, it is being ignored by your agency, I think, on a daily 
basis.
    Let me give you the latest example. The President's recent 
announcements on the 1001 area, ANWR. As you know, the coastal 
area of ANWR, the 1002 area of ANWR, very important place, laid 
out in ANILCA, whole chapters on it in ANILCA. And critical 
that the Federal Government was tasked with either looking at 
developing it for oil and gas, looking at the resources there, 
recommendations to Congress, or perhaps someday making it a 
wilderness.
    But do you think there is any other branch of government in 
the Federal Government that has the power to either develop the 
1002 area for oil and gas or make it a wilderness besides this 
body, Congress?
    Mr. Ashe. No, I do not.
    Senator Sullivan. OK, then how can the President of the 
United States a couple of months ago say he is going to submit 
a bill to make the 1002 area wilderness, which is fine, he has 
a right to do that, it has to be approved here, it won't go 
anywhere, but then in the meantime say, I am going to 
``manage'' the 1002 area for wilderness anyway? That is what he 
said on Air Force One to big fanfare.
    How can he manage the 1002 area for wilderness when you 
don't have the authority to do that? Can you explain that to 
me? This is a huge issue for my State. I think you are 
violating the law, I think the President is violating the law. 
How do you do that?
    Senator Boxer. Can we have order?
    Senator Inhofe. We have order already.
    Senator Boxer. He wouldn't let him answer the question.
    Senator Inhofe. Stop the clock and give him at least 1 more 
minute.
    Senator Sullivan. How do you manage the 1002 area for 
wilderness when you don't have the authority to designate 
wilderness, the 1002 area? Go read ANILCA. There is not a 
lawyer in town who thinks your agency has that authority.
    Mr. Ashe. There are lawyers who in the Interior Department 
who agree very much. Mr. Sullivan, we are managing the 1002 
area as we are managing it today for what we call minimal 
management.
    Senator Sullivan. No agency, Republican or Democrat, has 
ever said they are going to manage the 1002 area for wilderness 
with the exception of yours. First time ever.
    Mr. Ashe. We are managing the 1002 area to protect the 
wilderness value that is represented there. That is our duty.
    Senator Sullivan. Let me ask a follow up question. If there 
is a President in 2017, he is a Republican, he submits 
legislation to develop the 1002 area for oil and gas 
development. It doesn't go anywhere, it is a tough issue. Can 
that President, say it is President Cruz, President Rubio, 
President Paul, can that President say, I am now going to 
``manage'' the 1002 area for oil and gas development?
    Mr. Ashe. We have produced a comprehensive conservation 
plan.
    Senator Sullivan. Can you answer that question?
    Mr. Ashe. The President would have to, we would have to 
change our conservation plan. We have gone through the lawful 
administrative process of developing a comprehensive plan.
    Senator Sullivan. Not designating 1002 as wilderness 
without congressional approval.
    Mr. Ashe. We have a comprehensive conservation plan for the 
management of the refuge which has been developed through a 
public process.
    Senator Sullivan. Can a President in 2017 manage the 1002 
area for oil and gas, even through a comprehensive management 
plan?
    Mr. Ashe. No.
    Senator Sullivan. Can a President now manage the 1002 area 
for wilderness? The answer has to be no if you said no to the 
other question.
    Mr. Ashe. The President is not managing it.
    Senator Sullivan. The President said he was going to manage 
the 1002 area for wilderness. He doesn't have the authority to 
do that.
    Mr. Ashe. The United States Fish and Wildlife Service is 
managing the Arctic National Wildlife Refuge.
    Senator Sullivan. No, the 1002 area is different. Look at 
ANILCA.
    Mr. Ashe. No. The 1002 area is part of the Arctic National 
Wildlife Refuge. The law makes no distinction between the 1002 
area and the remainder of the refuge.
    Senator Sullivan. It makes a huge distinction. There is an 
entire chapter called the 1002 chapter in ANILCA. That is why 
it is called the 1002 area. There is a gigantic distinction. 
Director Ashe, I think that your agency has been violating the 
law. I have so many other questions, Mr. Chairman. We will 
submit them for the record. This is incredibly disturbing and a 
whole host of different ANILCA sections.
    I am going to ask one more question, Mr. Chairman, if I 
may.
    Senator Inhofe. Senator Sullivan, you have another good 
minute, because you were interrupted. Please go ahead.
    Senator Sullivan. So in Alaska there is a provision, what 
we believe is the ``no more'' provision of ANILCA. Do you 
believe that that exists?
    Mr. Ashe. It does exist.
    Senator Sullivan. So the ``no more'' clause says there 
should be, that ANILCA, according to Ted Stevens and others, 
was a finely balanced designation. We have almost 60 million 
acres of wilderness. We have State parks that are bigger than 
Rhode Island, individual State parks. We have a lot of 
wilderness; we love our wilderness.
    But we don't think there should be any more, and neither 
did the Congress. Do you think that there can be any more 
wilderness, managed, designated or otherwise, without the 
express permission of this body?
    Mr. Ashe. There can be no designated wilderness without 
congressional action.
    Senator Sullivan. Then how can the President of the United 
States say he is going to manage the 1002 area for wilderness? 
He can't.
    Mr. Ashe. The President has said, the U.S. Fish and 
Wildlife Service is going to manage the refuge to protect the 
wilderness value that resides there. We have ample authority to 
manage the refuge in a way that preserves and protects its 
wilderness character.
    That does not mean it is congressionally designated 
wilderness. We have gone through a lawful administrative----
    Senator Sullivan. Are you familiar with 1002(e) of ANILCA?
    Mr. Ashe. Not the number, no.
    Senator Sullivan. That is the one that says there are 
exploration plans that have to be approved by the Secretary in 
the 1002 area. The State of Alaska put together an exploration 
plan under that provision. You rejected it. Why wouldn't you 
want to work with the State of Alaska on a plan like this?
    Mr. Chairman, I will submit the additional questions I have 
for the record.
    Senator Inhofe. Thank you, Senator Sullivan. Senator 
Markey. Now, I think, Senator Markey, it might be a good time 
for us to relate our story from last week.
    Senator Markey. Please.
    Senator Inhofe. Oddly enough, while we disagree on a lot of 
issues, I have always felt Senator Markey to be a very close 
friend. We bumped into each other with our wives last week. He 
was joking around, I guess I was joking more than he was, after 
meeting his wife, who was really dolled up. She looked really 
good. I told her that, too.
    [Laughter.]
    Senator Inhofe. And they kidded me because my wife was 
wearing blue jeans and her Save the Ridley Sea Turtle tee-
shirt. Now, are you paying attention to this? The sea turtle, 
yes.
    Senator Boxer. I hope she is not out here today for this 
hearing.
    Senator Inhofe. But anyway, I think sometimes people try to 
say that conservatives or Republicans are not concerned about a 
species. In fact, when you say how many people would answer 
yes, we need a U.S. Fish and Wildlife, I think most Republicans 
would be on that list. It is just that we need some reforms 
there. We will talk about the Ridley sea turtle at a later 
time.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much. And by 
the way, your wife looked tremendous that day as well.
    [Laughter.]
    Senator Markey. There will be no graciousness gap that 
opens up in this hearing. And like you are saying, it did 
demonstrate that there areas of common agreement where we can 
work together. And your wife gave me a deep insight into you, 
that you have been married to her for 56 years. Is that right?
    Senator Inhofe. That is correct.
    Senator Markey. Incredible. That is a reason to believe 
that we can find areas of agreement.
    Senator Inhofe. So welcome, sir, we appreciate your being 
here.
    Senator Markey. On the 1002 issue, as we know, that 
question of whether or not that area is so special, so 
important that there should not be some extra protections, 
especially if there is going to be oil drilling and especially 
if the oil companies then want to export the oil overseas. It 
is one thing to say that they want to drill for America, but to 
drill and simultaneously be saying that we have a surplus in 
America, let's export our oil while drilling on this special 
land is a big question for the Country, very big question. And 
that deserves a big, big debate.
    With regard to Chatham, Massachusetts, which you know very 
well from your long service with the great Congressman Gerry 
Studds, there has been work done on the Monomoy Refuge for 
decades to support conservation efforts while maintaining 
historic fishing practices and small scale bay scalloping. I 
appreciate the Service's work with Chatham as the Monomoy 
Refuge has developed its comprehensive conservation plan. My 
hope is that the final plan will continue the partnership 
between Chatham and the Fish and Wildlife Service that has 
worked so well over the years. Can I get a commitment from you 
that you will keep me informed of the plan developments as it 
moves toward being finalized, so that we can understand how 
closely you are going to be working with Chatham in order to 
ensure that there is a continued comprehensive partnership?
    Mr. Ashe. Senator, I would be glad to come up personally 
and talk to you before we make any final decisions.
    Senator Markey. That is a very important issue to me.
    Critics of the Endangered Species Act and the Fish and 
Wildlife Service's efforts to implement it are often concerned 
with the amount of funds that the President's budget requests 
for supporting endangered species conservation. How do 
inadequate resources hinder the species conservation and 
delisting efforts of the Service?
    Mr. Ashe. I think the lack of support for doing 5-year 
assessments, inadequate support for the scientific 
investigation and information that we need, we have increases 
in our budget this year for our State college, for State and 
tribal wildlife grants. That would be an important investment 
in our State partners' capacity to do work in endangered 
species conservation and to provide us the work or the 
information that we need to make better listing and better 
delisting decisions.
    So resource constraints, in my view, are the principal 
reason that we are not making the progress that we could 
otherwise make.
    Senator Markey. So several of the bills being considered 
today will likely cause the cost of managing the Endangered 
Species program to increase dramatically. Do you believe the 
agency has the capacity to absorb these costs without requiring 
additional Federal funds?
    Mr. Ashe. No, we don't. Several of the bills that are 
before you today would essentially create separate causes of 
action. I hear constant criticism of the sale of litigation 
that we have to deal with now. But if these bills pass, it 
would establish new causes of action against the United States 
Fish and Wildlife Service.
    Senator Markey. And again, I will just list the bills. S. 
112 would require the agency to produce separate economic 
impact analyses for each State and locality affected by 
critical habitat designations. S. 292, 736, 855 would require 
the agency to publish massive amounts of raw scientific data. 
S. 293 would make litigation more cumbersome and delay court 
decisions. S. 736 would force the agency to review potentially 
massive amounts of unqualified scientific information. And S. 
855 would raise takings compensation above fair market value 
and require the agency to relist species every 5 years until 
recovery. Those are massive additional costs that the Fish and 
Wildlife would have to absorb without any increase in 
appropriations.
    Mr. Ashe. Correct.
    Senator Markey. And finally, Director Ashe, last week my 
colleagues on the other side of the aisle passed out a bill 
from this committee that would raise barriers to EPA using 
science to inform its decisions. Today we are considering a 
bill that would require the Fish and Wildlife Service to use 
any information, any information submitted to it by State, 
tribal or county governments in its decisions. Has the current 
best available science and commercial data standard served the 
conservation of wildlife well over the years, or do we need to 
change it?
    Mr. Ashe. I think it has served us very well. And we are 
held accountable. So if a State or local government or tribe 
provides us with information that represents the best available 
and we ignore it, I mean, we are held accountable for that by 
the courts. So I believe that provision has worked miraculously 
well to make sure that these decisions are science-driven.
    Senator Markey. And I agree with you, I think any data 
would just paralyze you. The best available data allows you to 
ensure that you are hearing all of those views that actually 
could substantively impact on the decision which you have to 
make. I agree with you 100 percent, and I yield back, Mr. 
Chairman. Thank you.
    Senator Inhofe. Thank you, Senator Markey. Senator 
Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Director Ashe, welcome. A couple of questions on the 
grizzly bear, sage grouse and the gray wolf. On the grizzly 
bear, the grizzly bear reached their population goal I believe 
several years ago in Wyoming, were delisted. The population 
goal at the time was 500 bears.
    Subsequently, a lawsuit forced your agency to backtrack on 
the delisting to complete a study on white bark pine. The 
result of the study showed that white bark pine was largely a 
non-issue, ultimately you could still move forward with the 
delisting.
    But my question is, what is the current target population 
goal for that same population today? It was 500 initially.
    Mr. Ashe. The 500 was one part of the recovery standard. We 
said a minimum of 500 bears to ensure that the population would 
be genetically connected to the larger grizzly bear population 
in the lower 48 and Canada. So that was one part of our 
recovery standard. We don't have a number that we are shooting 
for, but I can tell you, we agree that grizzly bears are 
recovered. We are working with the State of Wyoming and Idaho 
and Montana literally as we speak to try to put together the 
frame for a potential delisting proposal.
    Senator Barrasso. That would be helpful. People in my State 
feel that the bar has been raised, the goalpost has been moved 
in terms of the total counts. Thank you on your efforts there.
    The sage grouse, the State of Wyoming, as you know, said 
that it has worked very hard to create a plan to protect the 
sage grouse. Your office has been very helpful to us in that 
regard. You have worked collaboratively with our State. Just 
last week, your staff praised Wyoming's plan in a meeting with 
my staff. Wyoming, as you know, has worked in good faith to 
create a workable plan. Because we know that such a listing of 
sage grouse would be economically bad for our State, and 
because we believe we know best how to protect the bird in 
Wyoming.
    With that said, isn't it true that despite all this good 
work, Wyoming's plan isn't enough to avoid a listing that my 
State has tied to all the other States that have to develop 
plans to protect the sage grouse? And if their plans don't add 
up, that Wyoming could still face a listing?
    Mr. Ashe. The Wyoming plan by itself would not be 
sufficient to avoid a listing. So that is why we have come 
together with all 11 range States and the BLM and the Forest 
Service and the Natural Resource Conservation Service. It is 
through that collaborative, comprehensive process that we have 
the potential to get to a not-warranted determination.
    But like with Wyoming, Wyoming made difficult decisions to 
conserve the sage grouse. So conservation involves sacrifice. 
At some level we have to make tradeoffs. Wyoming has made them 
well. And the BLM and the Forest Service are now in the 
process, and I believe they are doing an extraordinary job.
    Idaho has been a good partner. Hopefully we will see other 
States, their plans take shape here very quickly, Oregon, 
Montana, Colorado. But it is that collective effort that will 
get us across the finish line.
    Senator Barrasso. Is it also true that even if all the 
States meet Wyoming's standard and the bird isn't listed by 
Fish and Wildlife that the agency could still be sued, could 
lose in court the position that Wyoming has already faced with 
the wolf delisting and the grizzly bear delisting?
    Mr. Ashe. It is possible.
    Senator Barrasso. We are just concerned, because it seems 
in spite of the agency's best efforts, sometimes the lawyers 
don't have the winning record that we would like in these cases 
when it comes to defending and delisting.
    Mr. Ashe. And I would say, in that context of that 
question, we have a $4 million increase proposed in our budget. 
Because if we were to get to a not-warranted, then we are going 
to have to defend that record. So we are going to have to be 
able to put together an administrative record that we can bring 
to court. We are going to have to have the people power to 
implement the agreements that we have forged in the context of 
this collaborative effort. So we need that capacity dearly.
    Senator Barrasso. And in terms of the gray wolf, has 
Wyoming met every goal that Fish and Wildlife has set to 
protect the gray wolf, including developing a wolf protection 
plan that lives up to your agency's standards?
    Mr. Ashe. Yes.
    Senator Barrasso. So do you believe it is time to once 
again delist the wolf?
    Mr. Ashe. I do.
    Senator Barrasso. Thank you. Thank you, Mr. Chairman. No 
further questions.
    Senator Inhofe. Thank you, Senator Barrasso. Senator 
Capito.
    Senator Capito. Thank you. Thank you, Mr. Chairman, thank 
you, Director, for being with us today.
    I am going to talk about the northern long-eared bat, no 
surprise there, we talked about it when you came to visit me. 
It is in 37 different States. I am interested to know what 
steps the Service has taken to prepare for the flood of new 
Section 7 consultations that will be required for the 
development of new transportation projects, additional 
renewable energy exploration, commercial and residential 
construction, electricity transmission projects, forest 
management projects. In this budget that you have put before us 
today, are you making any adjustments there to try to meet this 
heavy demand?
    Mr. Ashe. Makes me tired just listening to you.
    [Laughter.]
    Mr. Ashe. Yes, I mean, one of the largest increases in our 
budget is for our consultation and planning function within 
what we call ecological services. So I think yes, we are 
preparing for that. One of the things that we have been trying 
to do through the budget is to build that capacity. We know as 
the economy continues to recover that the demands on the Fish 
and Wildlife Service increase. We are anticipating significant 
additional need to have field capacity to deal with it.
    But with the long-eared bat, I think the 4(d) rule, the 
interim 4(d) rule provides significant flexibility. I think 
with the increases that are proposed in the President's budget, 
I anticipate that we will be able to manage that workload well.
    Senator Capito. When do you expect to have the final rule? 
You have an interim rule now?
    Mr. Ashe. We have an interim rule now. We will be going 
through a public comment process. I am thinking by the end of 
the year we should have a final rule.
    Senator Capito. Obviously, the concern there since it is 
such a wide-ranging species and it being in 37 States, and in 
the eastern part of the United States, obviously where West 
Virginia is located, the backlog of consultations and I know 
you are short-staffed in West Virginia anyway. It concerns me 
in terms of being able to move these projects forward.
    Mr. Ashe. Thank you. It does concern me too. I think we 
have built in a responsible increase in the budget that will 
help. The increase that we have in the budget I think is going 
to allow us to hire an additional 50 people in this area. Of 
course, that would be nationwide. But I think that capacity is 
going to be key to us dealing effectively with the northern 
long-eared bat and the lesser prairie chicken and the other 
species that we have listed. But I think again, our record 
shows that we can do that.
    I will note with the long-eared bat that the Indiana bat 
has been listed for over 20 years as an endangered species. It 
occupies much of the same habitat, has the same basic life 
history as the northern long-eared bat. And we have been 
managing that well and without significant controversy. So I 
think with the northern long-eared bat we have excellent 
cooperation from our State partners. And we have been working 
not just with State fish and wildlife agencies, but with State 
forestry agencies and I think we have laid the groundwork for a 
very cooperative, successful endeavor.
    And we will learn as we go along. The interim final rule is 
another innovation in flexibility that the law allows us. We 
put in place an interim rule, now we are going to hear 
additional public comment and make adjustments if necessary in 
the final rule.
    Senator Capito. Thank you so much.
    Senator Inhofe. Thank you, Senator.
    Director Ashe, thank you very much for the time that we 
have had here. You did an excellent job. I would ask you, if 
you don't mind, to come back to the anteroom so we could have a 
real quick word on something unrelated.
    Mr. Ashe. Thank you, Senator, always, for your kindness 
when I am here.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. I want to add my voice of thanks. I think 
that you showed us today you are a voice of reason. I think you 
showed us today the flexibility that you bring to this job that 
is in the Act. And I think you proved today that this number of 
bills that have been put into play in this committee, which are 
very sad to me, because I think they undermine the ESA, are not 
necessary. Because we can deal with you as a human being who is 
smart, you know your way around the block, you understand, you 
have a broad range of knowledge on these issues. Plus, you know 
how to keep your cool under what I thought was rude 
questioning.
    Senator Inhofe. That is getting a little out of hand there, 
Senator.
    Senator Boxer. I have the right of free speech. And that is 
my opinion, and I will say it again, I thought you held your 
cool under what I thought was rude questioning.
    I have done my share of that kind of questioning, so I 
think I can say I know it when I see it.
    So thank you, Mr. Ashe, and thank you, Mr. Chairman.
    Senator Inhofe. Let me applaud Senator Sullivan for his 
passion, his representation of his State. It means a lot to us 
and to the system.
    Mr. Ashe. And Senators, if I could, I would just say last 
night I was looking back, because I do believe that the 
Endangered Species Act should be reauthorized, and I think 
there could be room for improvement of the law. I looked back 
and the last time it was reauthorized was in 1998. You are both 
former members of the Committee on Merchant Marine and 
Fisheries in the House of Representatives.
    The base legislation for that was H.R. 1497 in the 100th 
Congress. The sponsors were Gerry Studds, Democrat from 
Massachusetts, Don Young, Republican from Alaska, Walter Jones, 
the committee chairman, a Democrat from North Carolina, and Bob 
Davis, the ranking Republican on the committee from Michigan. 
So I think it is possible to bring people of goodwill together. 
And we could do the same thing and we could pass legislation 
that improves the law.
    Senator Inhofe. Thank you very much, Director Ashe. Would 
you mind coming up to the anteroom now, because I want to have 
a real quick word with you. I would ask the second panel to 
please be seated.
    The second panel is David Bernhardt, partner in Brownstein 
Hyatt Farber Schreck. He is the former solicitor for the 
Department of Interior. Gordon Cruickshank, the County 
Commissioner from the Valley County in Idaho; and Donald Barry, 
Senior Vice President, Conservation Program, Defenders of 
Wildlife.
    What I would like to ask you to do is go ahead. Let's start 
with you, Mr. Bernhardt, for your opening statement.

STATEMENT OF DAVID BERNHARDT, PARTNER, BROWNSTEIN HYATT FARBER 
     SCHRECK, FORMER SOLICITOR, DEPARTMENT OF THE INTERIOR

    Mr. Bernhardt. Good morning, Mr. Chairman, members of the 
committee. I appreciate the invitation to testify before you 
today. I request that my written statement be included in the 
record.
    Senator Crapo [presiding]. Without objection.
    Mr. Bernhardt. By way of background, I have worked on ESA 
issues for over 20 years, including while serving as the 
Solicit of the Department of the Interior, as an attorney in 
private law practice, and as a congressional aide. Given the 
scope of the hearing and the time, I will make four brief 
points.
    First, many of the decisions made by the Fish and Wildlife 
Service are decisions of great public consequence, and as such 
they should be made with as much care and as much forethought 
and foresight as our Government can muster. These decisions 
have the potential to greatly impact the particular species at 
issue, but equally important, if not even more so, also people 
and communities where the particular species are present.
    Unfortunately, at times these decisions are driven by 
deadlines, some imposed by statute, some established by courts, 
and some imposed by the Service's own agreement with imposing 
litigants.
    In my opinion, these deadlines often have as their 
consequence less care and thought in crafting the underlying 
decision, less review of the legal sufficiency of the decision 
to be made, and I believe that the arbitrary time lines often 
undermine the credibility of the merits of the decision itself 
with the public.
    But you don't need to take my word for that. Recently, the 
Ninth Circuit Court of Appeals provided a view of a biological 
opinion prepared under a court deadline on a very significant 
matter. It upheld the legality of the opinion, but it 
questioned whether anyone is served by the imposition of tight 
deadlines in matters of such consequence. The court explained 
the biological opinion as a jumble of disjointed facts and 
analysis. It further pointed out that deadlines become a 
substantive constraint on what an agency can reasonably do. And 
it said that future analysis should be given the time and the 
attention that these serious issues deserve. I ask your 
committee to look at the validity of maintaining these 
deadlines.
    Second, despite the significant conflict and acrimony that 
exists in the implementation of the Act, I believe things might 
have been a lot worse. We must recognize that over the last 20 
years, those charges with implementing the Act, including Don 
Barry, who sits to my left, have developed and significantly 
expanded initiatives primarily related to sections 7 and 10 of 
the Act, such as multi-species conservation plans, safe harbor 
agreements, no surprises policies. Director Ashe talked about 
these earlier today.
    These administrative changes have been meaningful to the 
individuals, to entities, and even entire communities who have 
been able to use these tools to successfully resolve their 
particular challenges while providing the species protections 
under the Act. But, unquestionably, much more can and should be 
done to incentivize private landowners and States to be 
encouraged to engage in meaningful conservation efforts, and we 
should strive to further efforts that minimize conflict while 
still protecting species.
    Third, the controversy and conflict associated with the 
implementation of the Act may actually get much worse than it 
is today if the current Administration finalizes two 
regulations and one policy. One of the regulations is related 
to the designation of critical habitat; one regards the 
interpretation of a term called ``adverse modification''; and 
the policy is one that describes how the Service intends to 
utilize its authority to exclude areas from critical habitat 
designation.
    While the Service and NOAA Fisheries should be commended 
for making the effort to provide greater clarity to its 
employees and to the public on these issues, they have missed 
the mark and they have developed proposals that are untethered 
to the text of the Act itself.
    Finally, regarding the legislative proposals before you 
today, they are quite varied. Some reflect longstanding policy 
debates and others raise new questions. But they should be 
welcomed in the course of a meaningful dialog framed by whether 
the Act of today can or should be improved after the decades of 
experience that we have actually living under it.
    I think we can incentivize and create improvements to the 
Act while at the same time effectively protecting species.
    I welcome your questions.
    [The prepared statement of Mr. Bernhardt follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
    
    Senator Inhofe [presiding]. Thank you very much.
    We will recognize Senator Crapo for the purpose of an 
introduction.
    Senator Crapo. Thank you very much, Mr. Chairman. It is 
really an honor for me today to be able to introduce my good 
friend, Commissioner Gordon Cruickshank. Today the committee is 
going to hear from Commissioner Cruickshank from the Valley 
County of Idaho, representing the National Association of 
Counties. Commissioner Cruickshank has been a county 
commissioner in Valley County since 2007. Prior to joining 
Valley County's Commission, Commissioner Cruickshank spent 16 
years with the Valley County Road Department, with much of that 
time spent as the road superintendent managing 750 miles of 
roadways and bridges.
    Commissioner Cruickshank's experience as a county 
commissioner and road superintendent enables him to present a 
valuable perspective on the impact of the Endangered Species 
Act on local governments, especially rural counties throughout 
the West with the large presence of ESA-listed species and 
large tracts of federally managed land in their jurisdictions.
    As Commissioner Cruickshank will testify, county 
governments are responsible for a wide range of 
responsibilities, including county government buildings, roads 
and bridges, schools, and municipal water systems. Compliance 
actions and costs associated with ESA listing species present 
challenges to all of these government functions, and the 
challenges are exacerbated when such listings are the result of 
closed door settlements that do not properly address the best 
available science or economic impacts.
    County governments across Idaho and the County are 
committed to clean air and water, and the proper stewardship of 
our natural resources, but ESA listing determinations lacking 
in transparency and absent a proper accounting to the 
socioeconomics and costs to local governments do not help 
commissioners such as Commissioner Cruickshank to manage county 
resources while also preserving viable wildlife populations.
    Again, I thank Commissioner Cruickshank for coming here to 
testify. I think we are going to learn a lot from his wisdom, 
Mr. Chairman.
    Senator Inhofe. Thank you.
    Commissioner Cruickshank, let me just observe that I am 
sure, as you watched the first panel, there is a tendency for 
people in Washington to think all the wisdom comes from 
Washington. I can assure you that the majority on this 
committee don't agree with that. We welcome you and your local 
perspective on the problems that we are faced with.

 STATEMENT OF GORDON CRUICKSHANK, COUNTY COMMISSIONER, VALLEY 
                         COUNTY, IDAHO

    Mr. Cruickshank. Thank you, Mr. Chairman.
    Chairman Inhofe, Ranking Member Boxer, and distinguished 
members of the committee, thank you for inviting me to be here 
today on behalf of the National Association of Counties to 
share with you why the Endangered Species Act matters to 
counties.
    Through both my career in public service and involvement 
with NACo, I have seen firsthand the impacts of the ESA on my 
county, my State, and counties nationwide. In the 40 years 
since the ESA was enacted, our Nation has learned many lessons 
about how to protect endangered and threatened species. The ESA 
should be updated and improved to reflect those lessons.
    NACo has identified three key elements that should be 
considered as Congress examines the legislation to update and 
improve the ESA.
    First, ESA decisions must consider the socioeconomic 
impacts, as well as species impacts. Counties recognize the 
importance of the ESA; however, its requirements often result 
in unintended impacts on our local economies and the people we 
serve. For example, Valley County was recently identified as 
the potential site of a mine that could create over 400 jobs, 
1,000 indirect jobs, and provide $20 million in annual wages. 
However, concerns over mine impacts on listed salmon 
populations and threats of litigation have slowed approval of 
the project and the hundreds of jobs that could come with it.
    My county's ability to promote economic growth through 
outdoor recreation and tourism has also been impacted by the 
ESA. Recreation activities in Idaho contribute over $6 billion 
in direct consumer spending and support 77,000 jobs statewide. 
Recent decisions by the Forest Service have resulted in the 
closure of many roads that people rely on. Access has been 
restricted during our peak tourist seasons due to concerns over 
sedimentation impacts on listed species.
    Like 70 percent of counties in the United States, we are a 
rural county, and our natural resources are a vital part of our 
economy. Limiting access to outdoor recreation and natural 
resources limits our ability to grow and thrive.
    Again, the impacts on the local economy must be considered 
by Federal agencies as part of the ESA decisionmaking process.
    Second, the Federal Government must reduce the cost of ESA 
compliance to local governments. Permitting requirements and 
extended review time substantially increase project costs and 
delay project delivery, diverting limited funds from other 
critical county services. In general, for every year a project 
is delayed, the construction costs increase by approximately 10 
percent.
    For example, in Attawa County, Oklahoma, the Stepps Ford 
bridge project was ready to move forward after receiving the 
necessary Federal environmental permits. Construction was 
halted by the U.S. Fish and Wildlife Service after it decided 
to reconsider the project's impact on a listed species of 
catfish. Construction sat idle for over 170 days and cost an 
additional $270,000.
    For counties, every dollar spent on regulatory compliance 
or project delays takes away from funds available for other 
critical services like law enforcement, firefighting, and 
ensuring public health.
    Third, State and county governments must be treated as 
cooperating agencies when enacting conservation measures and 
settling ESA litigation. Local governments have every incentive 
to work with the Federal Government to promote species 
conservation, and this collaborative approach has been 
successful.
    For example, a listing of the Bi-State sage grouse would 
have impacted nearly 82 percent of Mono County, California's 
land area. The county took a leadership role in the Bi-State 
sage grouse conservation and cooperated with relevant Federal 
and State agencies in California and Nevada to provide 
technical support to landowners to limit local impacts on 
grouse populations. The county's efforts led to the 
announcement that the Bi-State sage grouse would not be listed. 
Clearly, solutions can be found.
    Counties work every day to protect and preserve their 
natural resources and environment. We are keenly aware of the 
historical, economic, and aesthetic values of our local 
environment, and work diligently to provide a sustainable 
future for our communities. Collaboration and consultation 
between all levels of government is critical to the success of 
the species conservation efforts. Locally driven conservation 
must be given time to work.
    Counties must also be confident that their collaborative 
efforts will be defended in court by Federal agencies and that 
they will have a seat at the table during settlement 
negotiations. Counties stand ready to work with the committee 
and Congress to better promote species conservation while 
safeguarding local economic stability.
    Thank you.
    [The prepared statement of Mr. Cruickshank follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Inhofe. Thank you, Commissioner.
    Mr. Barry.

STATEMENT OF DONALD BARRY, SENIOR VICE PRESIDENT, CONSERVATION 
                 PROGRAM, DEFENDERS OF WILDLIFE

    Mr. Barry. Mr. Chairman, I would like to submit my written 
testimony for the record and just make a few oral remarks.
    Senator Inhofe. Without objection.
    Mr. Barry. I would like to make basically six key points 
today.
    First of all, not one of the bills before this committee 
would actually promote the conservation and recovery of listed 
species, with the possible exception of the one from Senator 
Hatch, which would authorize the waiver of NEPA provisions for 
doing juniper removal, although the BLM already has that 
adequate authority. Collectively, we think that all of the 
proposals in front of this committee would become the 
equivalent of a legislative wrecking ball, accelerating 
extinctions and not promoting recovery.
    In my testimony I quote Mark Twain, who once said that I 
have lived through many terrible things, some of which actually 
happened. And I have a feeling that when you hear a lot of the 
dire predictions of widespread economic ruin from listings, you 
find that they rarely, if ever, come to pass.
    I would like to submit for the record a copy of an ENE news 
article from last June which highlighted some of the 
consequences that were anticipated for the listing of the 
Lesser prairie chicken that includes a number of quotes from 
folks from the oil and gas industry describing the likely ruin 
that would occur from it; and then it includes quotes from them 
a few months after the listing of the prairie chicken where 
they are basically saying everything is working just fine.
    That, to me, is an example of how, frequently, the 
predicted dire economic consequences really seem to happen.
    Many of these proposals also seem to be extreme solutions 
in search of problems, ostensibly addressing problems while in 
fact the Fish and Wildlife Service already has adequate 
authority and flexibility for dealing with the type of issues 
that are addressed. A good example of that has to do with 
provisions mandating the exclusion of areas from proposed 
critical habitat because of economic consequences. This is the 
one area of the Act where Congress, back in 1973, specifically 
gave permission and authority for the Fish and Wildlife Service 
to take economics into account, and the Service does this quite 
frequently.
    When they designated a critical habitat for the Northern 
Spotted Owl, they cut out 4.2 million acres of land because of 
the economic impacts from including those areas in the critical 
habitat. I think when they designated a critical habitat for 
the jaguar, they cut out something like 94,000 acres of land, 
again, because of economic impacts.
    So the Act currently works for the Fish and Wildlife 
Service and gives them authority for taking economics into 
account with critical habitat.
    I think one of the other big concerns that we have in the 
conservation community is that a number of the provisions in 
front of the committee today really distort and attack the 
concept of science and best available science. They decree and 
define what is best available science. In the case of State or 
local and county data, it all is decreed to be best. There is 
an example, I believe, that the Fish and Wildlife Service 
encountered with regards to the Gunnison sage grouse where the 
State said one thing and one of the local counties said 
something exactly opposite.
    So if the Fish and Wildlife Service is required to consider 
them both best available, but they are conflicting, how do 
reconcile something like that?
    We may disagree with a number of the decisions the Fish and 
Wildlife Service makes, but they have the ability right now to 
weigh the strength of the science that they have in front of 
them, to discount those that they think those recommendations 
that come in that they believe are weaker than others. And I 
think that to have Congress coming in and putting its thumb on 
the scale and decreeing some things as best available science 
is inappropriate.
    I think Dan Ashe also, earlier, really hit the nail on the 
head when he said that the big problem here is resources. They 
endangered species program is not broken, it is just starved. 
Over the last, I think, back to about 2007 or 2004, there has 
been an 11 percent actual decrease in funding for the 
Endangered Species Act when you take into account inflation. So 
the level of funding has been coming down while their 
responsibilities have been going up, and I think some of the 
problems that have been discussed before are really a 
representation of the fact that you have way too few people 
trying to do too much. They are doing the best job they can, 
but they are not going to be getting everything at A+ if they 
are stretched to the breaking point.
    Last, I would just say that the ESA, I think, has been a 
success. It has been mentioned that 99 percent of the species 
that are listed are still in existence and have been preserved.
    Dan brought up the last time the ESA was reauthorized. I 
was on the floor of the House with Walter Jones, Sr., the chair 
of the House committee that had jurisdiction over the ESA, and 
we had broad bipartisan support for that bill. I think it is 
possible at times to think back on those days as the way it 
ought to be, but it is hard for me to envision or to imagine 
how even a reasonable package of endangered species amendments 
could make it through this Congress and retain that sense of 
reasonableness and balance.
    Thank you very much.
    [The prepared statement of Mr. Barry follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Inhofe. Thank you, Mr. Barry.
    You know, I know what you are saying there, but I think 
from a local perspective you have heard several of us talk 
about problems that we have.
    And, Commissioner, when you mentioned a seat at the table, 
that kind of drove home to me a problem that I think we have 
said in several other ways during the course of this hearing. 
Dan Ashe, as I mentioned, came out to Oklahoma and was good 
enough to sit down and talk to the people. We had, on the 
lesser prairie chicken, five States involved, and the five 
States all came in. I think if they were to complain about one 
thing in the way the process worked, and I say this to all who 
are in the audience also, is that they didn't really have a 
seat at the table when a decision was made. They would come in 
and they will present their case, and then that is evaluated by 
the Fish and Wildlife. All of a sudden they pick up the paper 
and their decision has come out, and they weren't a part of 
that, they didn't have the opportunity, and I think you said it 
well, to have a seat at the table.
    Is this kind of what you are getting at?
    Mr. Cruickshank. Mr. Chairman, yes, it is. Quite often we 
are heard, but, however, when those decisions are made, we are 
not at the table; and then that impacts our local residents and 
could impact our economy. And by not having a seat at the 
table, how do you go back to the people that we are closest to? 
We are the part of the government that is closest to the 
people, and you try to explain to them or they try to come back 
to you and say why didn't you fight for us better, when we 
weren't at the table of the decisions to understand why the 
decision was made the way it was.
    So that is all we are asking, is to be involved all the 
time, clear through the entire process, so that it doesn't have 
that big of an impact on the county; and just to be listened 
and to be heard and understand why those reasonings happen. We 
need a seat at the table and we have shown with the Bi-State 
example that came in.
    And I can give you another example in Washington State 
where counties got together and they brought 200 stakeholders 
and helped to restore 3,400 acres of salmon habitat. It took 
the counties to be involved. They were there, they were helping 
with it, and that was a success story.
    So we are just asking to be involved, be educated, and we 
are there to help in any way.
    Senator Inhofe. Obviously, you are an elected official, so 
you have a lot of people saying you must not have the power 
that you should have in this position if you were able to 
present a better case. Is that somewhat accurate of the 
complaints that you hear from your constituents?
    Mr. Cruickshank. Yes, Mr. Chairman.
    Senator Inhofe. Because I think we have been through the 
same thing, those of us up at this table. The other area that 
has been brought up by this committee is a lot of the things 
that are done in secret and, again, not having a seat at the 
table on the settlements that are made on sue and settle, and 
this is something that a couple of those bills would address 
that for transparency purposes.
    Mr. Bernhardt, do you kind of agree to the seat at the 
table argument?
    Mr. Bernhardt. I think there are certainly ways that the 
Service can--yes, Mr. Chairman. As a matter of fact, there are 
various places in the Act where the Act guarantees a seat of 
the table, for example, certain places in section 7 an 
applicant has a seat at the table. There had been policies 
developed to include State and local governments in 
decisionmaking, but I think what you are hearing here today is 
a view that those don't go far enough; and certainly that is 
something that Congress can look at.
    In terms of the settlements themselves, as any lawyer will 
tell you, you often are looking at best ways to clear your 
docket, and at times when I was solicitor I went down and 
visited with the Service about these large listing cases, and 
what struck me on one of those visits is I sat down with Dale 
Hall, who had been both a career employee in the Fish and 
Wildlife Service and then subsequently was the director during 
the last half of the Bush administration. I went to Dale and I 
said, Dale, look, we have all these cases. There is probably an 
opportunity to settle them. I would really like to get your 
thoughts on this.
    And Dale said to me something that I will never forget; he 
said, absolutely there is no way we should settle those cases. 
And I said, why, Dale? And he turned to me and he said, look, I 
was here the last time as a career employee the last time a 
major settlement was initiated, and I can tell you that there 
was no additional resources and there was a priority of 
timelines that were put down on all of the local offices; and I 
know, I know that packages were developed and sent upstairs 
that didn't pass muster, but went ahead and went into the 
Federal Register because no one was reviewing them, and I don't 
think we should repeat that.
    And I think that was very good advice by Dale Hall, and I 
turned around and walked back up to my office and went on to 
other issues.
    Senator Inhofe. Dale Hall was a very good Oklahoman.
    Mr. Bernhardt. Yes, he is.
    Senator Inhofe. Well, in your testimony, Mr. Bernhardt, you 
discuss the problems with the critical habitat rules, and I 
would ask you do you have any specific suggestions on how to 
overcome that objection or that problem that we are having.
    Mr. Bernhardt. Well, I think Mr. Barry inadvertently 
misspoke when he said that critical habitat exclusions were 
developed in 1973. They actually, if you look at the 
legislative history, you will see that there were changes made 
in 1978 and they were a direct result of Congress seeing the 
TVA v. Hill decision by the Supreme Court and essentially 
saying, oh my goodness, what did we do. So when they looked at 
the Act to revise or improve it, their thought was as follows: 
let's leave the listing part pretty much intact, we think that 
is OK. But at this point of critical habitat designation, we 
would like that determination made at essentially the same time 
as the listing, or commensurate with it; and when you do that, 
secretary, you must look at the economics of the consequences 
of listing plus the critical habitat designation, and for other 
issues we are going to give you the authority, we are going to 
delegate you the authority to exclude certain areas, as Mr. 
Barry said.
    Now, what has happened over the last many years is at times 
the secretary has used that; at other times they have not, and 
it is entirely discretionary. So one thing to look at is should 
that provision be beefed up in some way.
    This Administration has a proposal that would actually say 
there are laying out a policy on how to do these exclusions so 
there is more clarity to their employees, and that is good. At 
the same time, if you are from a western State, their proposal 
is essentially to not use these exclusions on Federal lands, or 
at least use them very rarely. So that is an area that you can 
look at in terms of how you structure an act and ensure that 
these decisions regarding economics that are important to 
people are more robustly factored in. But that is something 
that Congress looked at in 1978 and came to where they wanted 
to be, and maybe the balance needs to be a little differently.
    Senator Inhofe. Thank you.
    Senator Crapo.
    Senator Crapo. Thank you very much, Mr. Chairman.
    Commissioner Cruickshank, I have a couple of questions for 
you. I want to focus on the idea of the value or utility of 
relying on people who live where the land is or live on the 
land and in the neighborhood being able to come up with the 
kinds of solutions and protections to put in place to protect 
their land. You have heard even here today where some we will 
call those who think that we need to make some improvements or 
some fixes anti-fish and wildlife or anti-environmental 
protection or species, and that has always frustrated me, 
coming from a beautiful State like Idaho. I first want to just 
ask your observation on this. I would assume that you live in 
Valley County because you think it is a beautiful, wonderful 
place, and that you would like to be able to protect and 
preserve the species and the environmental heritage that is 
there as much as any Washington, DC, or Californian or person 
from any other part of Idaho. Would you agree with that?
    Mr. Cruickshank. Yes, I would, Senator.
    Senator Crapo. And you would also like to have a local 
resource-based economy be able to thrive there, correct?
    Mr. Cruickshank. Yes, I would.
    Senator Crapo. And the question I have is do you believe 
that it is possible for people to live in Valley County and 
protect the beautiful place that they live in and still have 
jobs and build businesses and have an economic future?
    Mr. Cruickshank. Yes, Senator, I do. Over the years, like I 
have stated, we have learned many valuable lessons on how we 
treat the natural resources or how we protect the land. I grew 
up farming, so I grew up nurturing the ground and knowing how 
it could produce, and that is how we made our living. So the 
counties are there. We want to safeguard our Nation's wildlife 
and our fish and our plants, and in my county alone we have 
spent millions of dollars to either resurface roadways or 
change culverts out to make more fish-friendly passageways for 
the salmon recovery and things like that; and I am proud to say 
that the salmon river that flows through Valley County is some 
of the prime spawning areas for that salmon, but while we still 
maintain access to our residents to enjoy that area. And that 
is some of the concerns, because some of those accesses have 
been closed. You can imagine if the road was closed going to 
your home, you would be upset too, and the residents come to us 
and say why is this happening to us. So that is why we are 
involved.
    But we are seeing where we are doing the best we can and 
then being told we are not doing enough. And this all comes at 
a cost to the county, to the time and the efforts that we do, 
but we are not being recognized as we are doing anything to 
really help. But in essence we are, we are doing what we can 
within our financial means. So when you talk about what can we 
do better, when you talk to the local stakeholders, sometimes 
it may not be all about the science; it may be that the local 
stakeholder knows where that population thrives better than 
other areas that have been looked at.
    Senator Crapo. Well, there certainly, I don't think, is any 
substitute for involving people who know the land and who know 
the circumstances around it. I just wanted to get that out 
because sometimes it is a little frustrating to have your 
motives challenged and to have your commitment to protecting 
our wonderful earth challenged because you believe there may be 
a better way to do it.
    Another criticism that happens, though, and happens quite 
often, is that it is said, well, maybe the people who live 
there in Idaho, or maybe the people who live in Wyoming or 
Oklahoma, maybe they really do love the land and really do love 
the environment, but they don't have the capacity, they don't 
have the education, they don't have the experience to really 
protect the land; we have to bring in the Federal Government or 
we have to bring in the experts from somewhere to tell them how 
to do it.
    My question is do you believe that local governments, 
working in conjunction with the Federal agencies and the others 
who are involved in the land management have the capacity to 
provide the necessary protection of the environment and the 
species that we seek to protect?
    Mr. Cruickshank. I believe that it all has to be taken into 
consideration. The science can be brought into the equation, 
but I think what is lacking is that the Federal Government 
explaining how that science works to the local stakeholders and 
the local people that live there. They love the land and they 
love everything about it, and they understand what they see on 
the ground; and quite often what they see on the ground doesn't 
maybe match with what the science says. So I think working 
together, sitting down together, and I have done this with 
groups as well, and we can come and find a lot of common ground 
that we all agree on. Sometimes it is a little bit of that 
right at the very end, the 10 percent or so that we may have to 
try to work out, but a lot of times we agree, but it is just a 
matter of getting around the table, educating, understanding 
what we are trying to accomplish. I believe we can get there, 
and that is why we are asking to be involved all the way 
through the process, and I think the counties are willing to do 
that.
    Senator Crapo. Well, thank you. And I appreciate you taking 
your time to come here to Washington, DC, to share this with 
us.
    Mr. Cruickshank. Thank you, Senator, and thank you, 
Chairman.
    Senator Inhofe. Well, thank you. Just kind of building on 
what Senator Crapo is saying, there is kind of an irresistible 
temptation by a lot of people, when their argument is not too 
good, to start name-calling, and I sit here and it is very 
difficult, very difficult to have someone say, well, they 
probably just don't care about endangered species, they don't 
care about the environment. It is just not true at all. That is 
why I brought up this thing with Senator Markey. He and I are 
good friends, and yet we don't agree on very much.
    But when our wives ran into each other and my wife was 
wearing her Save the Ridley sea turtle t-shirt, I was kind of 
reminded. You might remember, in fact, Dan, you might remember 
this, Ila Loetscher was the turtle lady, very famous. She died 
at 100 years old. She was lauded in National Geographic and 
everything else, and the reason is the Ridley sea turtle at 
that time only laid its eggs in two places in the world: Vera 
Cruz and very south Texas, on South Padre Island.
    I can remember growing up as a small child, and with my 
kids, teaching them to do the same thing. During the hatching 
season, we would actually spend the night up there and make 
sure that those little critters that would get out, they would 
hatch and they can make it to the ocean without other people 
either trying to get them for boots or critters trying to get 
them.
    Anyway, I hope people keep in mind that Republicans and 
Democrats are both very sensitive to this beautiful world that 
we have and the environment that we live in.
    You were squirming a little bit, Mr. Barry, when Mr. 
Bernhardt made some comments. Did you want to make any response 
to that?
    Mr. Barry. Well, one of the big challenges, I think, for 
the State fish and wildlife agencies is having adequate 
resources to accomplish their work as well. I was sort of 
paying attention to what was happening with a lot of the State 
fish and wildlife agencies' budgets when the recession hit, and 
they all took a huge beating. There is a wide variation among 
State fish and wildlife agencies as to the amount of resources 
that they have available for fish and wildlife conservation. 
You have some States like California and Florida that are 
putting in a lot of money. Idaho is another one of those States 
that puts in a lot of money. But there are other States that 
are putting in next to nothing. I think Kansas put in something 
like $34,000 last year or in 2013 on endangered and threatened 
species conservation. So there is a wide variation from State 
to State to State, and that is one reason why, I think, having 
sort of a uniform one-size-fits-all approach to activities 
under the Endangered Species Act can be ill advised at times, 
because not every single State, even if they have the desire, 
has the resources to be able to engage as actively as they 
would like to.
    David and I were talking before the hearing. I logged in 12 
years at the Interior Department as an attorney, I was a chief 
counsel for the Fish and Wildlife Service for a number of 
years. I was Jim Watts' wildlife lawyer, if you will. And I 
think the Endangered Species Act has been a remarkably 
successful statute given the amount of work that is involved in 
it. When I spent 8 years under Secretary Babbitt, we adopted 
almost all of the reforms that David referred to, and spent 
many, many years working with State and local officials. I 
spent half my time probably walking in the woods with private 
landowners that owned large forest areas and that. So the Act 
is a challenge. I think it can work. I think it just needs more 
resources.
    Senator Inhofe. Well, I just would observe that the 
complaints that you hear up here and that you heard during the 
course of this hearing really wouldn't be corrected by more 
resources, in my opinion. We are talking about transparency; we 
are talking about getting involved in these lawsuits. The sue 
and settle thing is out in the open. We can participate, and 
then when the decisions are made, to have local participation. 
That doesn't, in my opinion, cost any more.
    Mr. Bernhardt, did you want to say anything about that, 
since you brought that subject up?
    Mr. Bernhardt. Well, first off, I think that a lot has 
changed in our society since 1973, too. If you look at the 
number of biologists at the BLM or the Forest Service, what you 
would see that wildlife considerations, and I think this is 
laudable, wildlife considerations are an important aspect of 
their decisionmaking, irrespective of the Endangered Species 
Act. And that is not to minimize the importance of the Act, 
that is just a reality of where we are as a Country. I think 
that it is very important for these decisions, because I think 
they are important decisions and I think they have great 
consequence, and my view is that it is important for those 
decisions to be transparent, that the transparency facilitates 
public confidence in the decision.
    And I think that there should be ways for a broader public 
to be able to see things like settlement documents, if that is 
required. There are means for Congress to be able to see those. 
There is an ability in this day of electronic media and 
electronic availability to ensure that the underlying basis of 
decisions is available, while still protecting those interests 
that Mr. Ashe raises in his testimony, such as copyright and 
State disclosure requirements and the protection of the 
species. Those things can be worked through. And I think what 
we should do is strive to make improvements that enhance public 
confidence in the Act, while at the same time protecting 
species and trying to minimize conflict.
    Senator Inhofe. That is a good statement.
    Senator Crapo, do you have anything further?
    Let me apologize to the second panel, because we were late 
in getting you started and, as you can see, there is not as 
much participation as there should be. However, every Senator 
up here is represented by staff, and I can assure you that your 
testimony will be very seriously taken into consideration on 
the acts that we are putting together for the future. And I 
thank you very much for being here.
    We are now adjourned.
    [Whereupon, at 12:03 p.m. the committee was adjourned.]
    [Additional material submitted for the record follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                 [all]
</pre></body></html>
